<html>
<title> - EXAMINING VA'S POLICE FORCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      EXAMINING VA'S POLICE FORCE

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, JUNE 11, 2019

                               __________

                           Serial No. 116-16

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-765                       WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   MARK TAKANO, California, Chairman

JULIA BROWNLEY, California           DAVID P. ROE, Tenessee, Ranking 
KATHLEEN M. RICE, New York               Member
CONOR LAMB, Pennsylvania, Vice-      GUS M. BILIRAKIS, Florida
    Chairman                         AUMUA AMATA COLEMAN RADEWAGEN, 
MIKE LEVIN, California                   American Samoa
MAX ROSE, New York                   MIKE BOST, Illinois
CHRIS PAPPAS, New Hampshire          NEAL P. DUNN, Florida
ELAINE G. LURIA, Virginia            JACK BERGMAN, Michigan
SUSIE LEE, Nevada                    JIM BANKS, Indiana
JOE CUNNINGHAM, South Carolina       ANDY BARR, Kentucky
GILBERT RAY CISNEROS, JR.,           DANIEL MEUSER, Pennsylvania
    California                       STEVE WATKINS, Kansas
COLLIN C. PETERSON, Minnesota        CHIP ROY, Texas
GREGORIO KILILI CAMACHO SABLAN,      W. GREGORY STEUBE, Florida
    Northern Mariana Islands
COLIN Z. ALLRED, Texas
LAUREN UNDERWOOD, Illinois
ANTHONY BRINDISI, New York
                 Ray Kelley, Democratic Staff Director
                 Jon Towers, Republican Staff Director

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                 CHRIS PAPPAS, New Hampshire, Chairman

KATHLEEN M. RICE, New York           JACK BERGMAN, Michigan, Ranking 
MAX ROSE, New York                       Member
GILBERT RAY CISNEROS, JR.,           AUMUA AMATA COLEMAN RADEWAGEN, 
    California                           American Samoa
COLLIN C. PETERSON, Minnesota        MIKE BOST, Illinois
                                     CHIP ROY, Texas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            
                            C O N T E N T S

                              ----------                              

                         Tuesday, June 11, 2019

                                                                   Page

Examining VA's Police Force......................................     1

                           OPENING STATEMENTS

Honorable Chris Pappas, Chairman.................................     1
Honorable Jack Bergman, Ranking Member...........................     2

                               WITNESSES

Mr. Michael Missal, Inspector General, U.S. Department of 
  Veterans Affairs...............................................     4
    Prepared Statement...........................................    27

Ms. Renee Oshinski, Acting Deputy Under Secretary for Health for 
  Operations and Management, Veterans Health Administration, U.S. 
  Department of Veterans Affairs.................................     5
    Prepared Statement...........................................    31
        Accompanied by:

    Mr. Kevin T. Hanretta, Principal Deputy Assistant Secretary 
        for Operations, Security, and Preparedness, U.S. 
        Department of Veterans Affairs

    Mr. Frederick Jackson, Director, Office of Security & Law 
        Enforcement, U.S. Department of Veterans Affairs

                       STATEMENTS FOR THE RECORD

American Federation Of Government Employees, AFL-CIO (AFGE)......    34
Letter from AFGE Law Enforcement Committee.......................    36
Jean Telfort.....................................................    37

 
                      EXAMINING VA'S POLICE FORCE

                              ----------                              


                         Tuesday, June 11, 2019

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room 210, House Visitors Center, Hon. Chris Pappas [Chairman of 
the Subcommittee] presiding.
    Present: Representatives Pappas, Rice, Rose, Cisneros, and 
Bergman.
    Also Present: Representative Moulton and Representative 
Mast.

          OPENING STATEMENT OF CHRIS PAPPAS, CHAIRMAN

    Mr. Pappas. Today's hearing will come to order. Today's 
hearing of the Oversight and Investigation Subcommittee is 
entitled, ``Examining VA's Police Force.''
    The Subcommittee will examine the policies, operations, and 
management of the Department of Veterans Affairs Police Force. 
A major focus of the hearing is a recent Office of Inspector 
General report.
    The Department's Police Force has a vital mission. VA 
Police protect the veterans, staff, visitors, and property at 
VA facilities. More than 4,000 police not only respond to crime 
and keep the peace across more than 150 VA facilities, they do 
this in a health care setting, which adds to both the 
importance and complexity of the police mission.
    A police officer may be the first VA employee they see as 
they enter the facility, and officers are interacting 
continually with veterans who are awaiting medical treatments 
or arranging for follow-up care. And the VA Police often 
encounter veterans sitting alone on a bench on the grounds or 
in the parking lot. I think it is correct to say the VA Police 
are the part of the health care mission of the Department.
    The tragedy of veteran's suicide underscores the importance 
of our VA Police Officers and their work. Since the beginning 
of the year, seven veterans have committed suicide within the 
Department of Veterans Affairs facilities. VA Police are often 
the first to encounter veterans during an attempt and are part 
of the response team.
    The importance of VA Police duties and responsibilities 
means that we can and should find ways to improve their 
operations.
    In December, the Inspector General released a report 
examining VA Police. Central to the findings were serious 
problems with the governance structure. To put it more simply, 
the Inspector General asked the question, who is in charge? I 
was surprised to read in the IG report that the answer is 
actually pretty complicated. Each VA hospital administrator is 
in charge of its own small police force of a couple dozen 
officers. Each hospital administrator determines the number of 
police and level of resources, and is responsible for 
implementing policies about security, use of force, and hiring 
and firing for officers.
    Meanwhile, two separate offices at the VA headquarters 
establishes policies and handles oversight. That is why at 
today's hearing we have multiple people from VA headquarters.
    The Inspector General report was clear in finding that, 
quote, ``VA did not have adequate and coordinated governance 
over its police program to ensure effective management and 
oversight.'' It found, quote, ``confusion about police program 
roles and authority.''
    The IG made several important recommendations to clarify 
leadership and address some critical problems; however, I 
understand the IG recommendations have not yet been 
implemented, nor have we seen new police policies from 
headquarters.
    In addition, there are workforce-related concerns, 
including questions as to whether VA Police have adequate 
staffing resources, including a very high vacancy rate. 
According to the IG, 40 percent of VA medical facilities have a 
vacancy rate among police of 20 percent or higher.
    The Subcommittee has also heard of other concerns, 
including how VA handles allegations involving inappropriate 
use of force and potential violations of veterans' civil 
rights.
    We are here today to find solutions and learn how the 
Department will address the challenges faced by VA Police. I 
look forward to the testimony of today's witnesses.
    And, with that, I would like to recognize Ranking Member 
Bergman for 5 minutes for any opening remarks he may wish to 
make.

       OPENING STATEMENT OF JACK BERGMAN, RANKING MEMBER

    Mr. Bergman. Thank you, Mr. Chairman.
    Comprised of nearly 4200 Federal law enforcement officers, 
the Department of Veterans Affairs Police maintain physical 
security at VA facilities, and ensure patient, visitor, and 
employee safety. According to the Office of Inspector General, 
VA's police force is one of the top ten largest law enforcement 
organizations in the Federal Government. Running such a large, 
decentralized entity requires clear lines of authority and 
vigilant oversight.
    In its December 2018 report, the Office of Inspector 
General found several areas of concern within the VA Police 
program, many of which stem from the fact that Veterans Health 
Administration and the Office of Security and Law Enforcement 
are jointly responsible for different aspects of the police 
program.
    OSLE is part of the VA's Central Office under the auspices 
of the Assistant Secretary for Human Resources and 
Administration. OSLE writes the police policies, trains the 
officers, investigates criminal incidents at VA facilities, and 
inspects local medical center police units for compliance. 
However, badged officers do not report to OSLE; rather, they 
report to the medical center's chief of police, who reports to 
the facility director, who in turn reports to the VISN 
director, who in turn reports to the Deputy Under Secretary for 
Health for Operations and Management. This is, this is 
Bureaucracy 101. A large government agency with two separate 
governing offices, which, as OIG found, creates confusion 
regarding program roles and office authorities. This makes it 
difficult for VA to effectively monitor its police force, 
identify trends, and quickly react to issues.
    For example, OIG found that OSLE did not timely inspect 103 
of the 139 medical centers, or 74 percent, that have VA police 
units due to a shortage of inspectors. This means that facility 
police departments lost timely feedback, which is critical for 
process improvement. Moreover, on top of the delayed 
inspections, the policies for which the inspectors were 
evaluating police unit compliance are often outdated and in 
need of revision.
    I understand that VA is addressing OIG's recommendations, 
so I would like assurance that VA has a sense of urgency in 
addressing its shortcomings and to get a better sense of 
whether VA is taking appropriate action. To that end, I would 
like to hear Mr. Missal's assessment of whether VA is on track 
to close out OIG's recommendations by the end of 2019 and what, 
if any, barriers exist to doing so.
    From VA, I want to hear specifics. It is not enough to say 
that VA is looking into the matter, I would like to know 
specifically what VA is doing to address OIG's recommendations. 
Is VA considering a reorganization of the police service? If 
so, I want to know who is overseeing that review, what options 
VA is considering, and what is the timeline for the review.
    Also, at nearly every hearing we identify a deficiency that 
ties back to human resources; this hearing is no exception.
    The VA's police force has nearly 700 vacancies, that is 
approximately 17 percent of the force. In fact, according to 
OIG, one facility had a vacancy rate of nearly 45 percent.
    From VHA, I want to hear specifics concerning what it is 
doing to improve officer recruitment and retention. I 
understand that VA is working on addressing career 
opportunities and pay, but VA has had recruitment and retention 
authorities available to it under existing law, so how did the 
police service get to its current state? Can VA document that 
the current recruitment and retention authorities are 
insufficient? Was it a lack of oversight or was it simply not a 
priority for medical center directors?
    From OSLE, for example, I want to know who is accountable 
for developing the police officer staffing model, a project 
that has been ongoing since 2016, and when will the model be 
rolled out to all facilities.
    In the end, we all want VA to provide patients, visitors, 
and employees with safe environments. To the VA Police officer 
standing post, thank you for your vigilance. I hope that this 
hearing shines needed light on the program and spurs VA to 
address the identified deficiencies.
    With that, Mr. Chairman, I yield back.
    Mr. Pappas. Thank you, General Bergman.
    I will now recognize our first witness, Mr. Michael Missal, 
Inspector General of the Department of Veterans Affairs. Mr. 
Missal was confirmed by the Senate in his role in 2016. He has 
had previous experience in both the private sector and at other 
government agencies, including the Securities and Exchange 
Commission. The Office of Inspector General conducts 
investigations, audits, evaluations, and inspections of VA 
programs to eliminate waste and fraud, as well as to detect and 
prevent criminal activity.
    The Subcommittee thanks you for appearing today, Mr. 
Missal. You have 5 minutes.

                  STATEMENT OF MICHAEL MISSAL

    Mr. Missal. Thank you. Chairman Pappas, Ranking Member 
Bergman, and Members of the Subcommittee, I appreciate the 
opportunity to discuss the Office of Inspector General's 
oversight of the Department of Veterans Affairs Police program. 
I would like to highlight the findings from our December 2018 
report, ``Inadequate Governance of the VA Police Program at 
Medical Facilities.''
    The focus of this audit was to determine whether the VA 
Police program has an effective governance structure in place, 
meets requirements for size and qualifications, and conducts 
adequate inspections to ensure compliance with policies and 
procedures.
    Having an effective governance structure is critically 
important to the functioning of any organization. We felt this 
audit was particularly significant as the governance and 
staffing of the VA Police impacts the safety of veterans and 
their families, VA personnel, and visitors to VA facilities.
    VA Police officers provide security and law enforcement 
services at VHA facilities, as well as Veterans Benefits 
Administration offices co-located with VHA facilities and some 
VA National Cemeteries. They are authorized to carry firearms 
in an official capacity, investigate criminal activity, and 
arrest individuals on Department property for offenses 
committed within VA's jurisdiction and consistent with other 
law enforcement agency agreements. VA's police force consists 
of approximately 4,000 officers at 139 of the 141 VA medical 
centers, which places it among the ten largest law enforcement 
workforces in the Federal Government.
    Responsibility for the police program is shared between VHA 
and the VA Office of Operations, Security, and Preparedness. On 
September 14th, 2018, VA Secretary Robert Wilkie reassigned OSP 
to the Assistant Secretary for Human Resources and 
Administration, and the position of Assistant Secretary for OSP 
was eliminated.
    Our audit found that VA did not have adequate and 
coordinated governance over its police program to ensure 
effective management and oversight for its police officer 
workforce nationwide. We determined that the governance 
problems occurred and persisted in part because of confusion 
about police program roles and authority between VHA and OSP. 
Governance issues also resulted from a lack of centralized 
management or clearly designated staff within VHA to manage and 
oversee the police program.
    Our audit made four general findings. First, VHA and the 
Office of Security and Law Enforcement, which is part of OSP, 
did not track and assess police program operations and 
performance in a systemic and effective manner. Second, VA 
lacked facility-appropriate police officer staffing models and 
had extensive shortages of VA Police officers. Third, there was 
not timely inspections of police operations at VA medical 
centers. As of September 30th, 2017, 103 of the 139 VA medical 
facilities with police units were not timely inspected. And, 
fourth, VA Police officers lacked guidance on investigating any 
misconduct of facility leaders who manage the police program or 
control its resources.
    We made five recommendations to the VA Deputy Secretary 
that focused on the areas of governance, staffing, the 
inspection program, and processes. VA concurred with all and 
the recommendations remain open today.
    Given the issues we identified in this audit, we started 
additional audit work on information management within the 
police program. This work is focused on whether the VA Police 
program's information management strategy and systems provide 
its leader and workforce with the information needed to manage 
and guide operational performance.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions that you or other Members of the 
Subcommittee may have.

    [The prepared statement of Michael Missal appears in the 
Appendix]

    Mr. Pappas. Thank you, Mr. Missal.
    I will now recognize our second witness, Ms. Renee 
Oshinski, Acting Deputy Under Secretary for Health for 
Operations and Management of the Veterans Health 
Administration. Ms. Oshinski has been serving in this role on 
an acting basis for about 6 months, having previously served as 
the network director for VISN 12 since December of 2016.
    Ms. Oshinski will provide testimony for all three of our 
Department of Veterans Affairs witnesses, including Mr. Kevin 
Hanretta, Principal Deputy Assistant Secretary for Operations, 
Security, and Preparedness.
    We have as well Mr. Frederick Jackson, Director of the 
Office of Security and Law Enforcement.
    However, all of the VA witnesses appearing today will 
respond to questions. The Subcommittee thanks you all for 
appearing today. Ms. Oshinski, you have 5 minutes.

                  STATEMENT OF RENEE OSHINSKI

    Ms. Oshinski. Thank you. Good morning, Chairman Pappas, 
Ranking Member Bergman, and Members of the Subcommittee. Thank 
you for the opportunity to discuss the Department of Veterans 
Affairs' current and future policing strategy. I am accompanied 
today by Kevin Hanretta, the Principal Deputy Assistant 
Secretary for Operations, Security, and Preparedness, and 
Frederick Jackson, the Executive Director for the Office of 
Security and Law Enforcement.
    VA Police Officers are Federal law enforcement officers who 
serve critical roles in securing facilities and protecting 
patients, visitors, employees, and VA property. They provide 
security and law enforcement services at VHA and VBA offices 
that are co-located with VHA facilities. The officers sometimes 
provide security for national cemeteries.
    VA Police are one of our most important ambassadors, 
because they work to resolve incidents across a variety of 
settings in a humane and respectful manner.
    Ensuring physical security for VA medical centers can be 
complicated, as VA must balance safety and security, while 
providing an open and welcoming health care environment. 
Collaboration between law enforcement and health care 
professionals is crucial when responding to violent incidents 
or police calls for service in the field.
    To address security issues, VA medical centers have 
implemented panic buttons, limited guest hours, increased 
police presence, installed security cameras, enhanced emergency 
preparedness, and more. Physical security and vulnerability 
assessments are done at each medical center to identify unique 
risks, because what works at a rural facility may not apply at 
an urban facility.
    The Office of Security and Law Enforcement, OSLE, is 
responsible for implementing an effective security program 
within VA by ensuring officers apply 21st century police 
techniques in the line of duty. Special agents and inspectors 
within OSLE have responsibility to provide direct technical 
support to VA police chiefs and facility management within 
their designated areas. These special agents and inspectors are 
in regular contact with their respective police chiefs.
    The VA Police officers' methods of law enforcement are 
unique because our work is conducted in a health care setting. 
We serve a population of trained military veterans suffering 
from a variety of medical and psychological traumas. Due to 
this environment, all VA Police officers receive specialized 
training at the VA Law Enforcement Training Center, the LETC. 
The LETC is located in Little Rock, Arkansas, and is accredited 
by the Federal Law Enforcement Training Accreditation Board. It 
is recognized as meeting the highest standards in Federal law 
enforcement training. It is the sole Federal Government 
provider of a training program that emphasizes the use of 
nonphysical techniques.
    All VA Police officers go through a 10-week basic course at 
the LETC. They receive 30 hours of training specific to de-
escalation and conflict management, with a special focus on 
awareness of suicide and its prevention. Officers also complete 
nearly 24 hours of de-escalation training where they learn 
skills to effect positive outcomes in real-life scenarios.
    VA appreciates the reviews done by both the Office of the 
Inspector General and the Government Accountability Office, as 
they have led to strengthening of our current VA Police 
service.
    In response to these reviews, in November of 2018, VHA 
enhanced our governance structure by hiring a Senior Security 
Officer. In February of 2019, the VHA Executive in Charge 
directed each network to detail a full-time FTE to serve as the 
VISN police chief. Over the last 4 months, these VISN chiefs 
have worked to close gaps in inspection results, implement 
systemic process improvements, promote retention and hiring and 
growth strategies, and mitigate physical security 
vulnerabilities. They have been a welcomed asset to the field.
    VA is looking at ways to improve the governance structure 
at the department level to ensure better accountability, the 
proper application of policy, and allow for rapid deployment of 
assets. They have expanded oversight to include developing a 
new chief orientation guide; developing a training program for 
hospital leaders who oversee police services; developing a 
national mitigation strategy for inspections and physical 
security vulnerabilities; and enhancing communication and 
reporting of critical incidents through our leadership 
structure.
    We look forward to this opportunity to improve our security 
operations and keeping our Nation's veterans safe, while 
providing the top-quality care they have earned.
    Chairman Pappas, we appreciate the Subcommittee's continued 
support and encouragement in identifying and resolving 
challenges as we find new ways to care for veterans.
    This concludes my testimony. My colleagues and I are 
prepared to respond to any questions you might have.

    [The prepared statement of Renee Oshinski appears in the 
Appendix]

    Mr. Pappas. Well, thank you, Ms. Oshinski. Thank you to 
each of our witnesses for appearing here today.
    I would now like to open the questioning portion of this 
Subcommittee meeting, and I will begin by recognizing myself 
for 5 minutes.
    I would like to return to a question that was posed in the 
IG report and that is this: who is in charge? This is a 
critical concern that I think we need to unpack here this 
morning.
    So, Mr. Missal, I want to first go to you. I recognize that 
the Deputy Under Secretary described several improvements that 
the VA is making to help address the concerns that you have 
raised, I am wondering how close this gets to addressing the 
concerns and will the improvements that she described here this 
morning be enough to satisfy your office?
    Mr. Missal. We have not yet had an opportunity to formally 
assess them. One of our recommendations is for VA to do an 
assessment of their governance. We are not here, since we are 
not here to make management recommendations, we will not 
suggest which way they should go. We just found deficiencies in 
the current format, including how it was implemented. So what 
we are trying to do here is to get a sense from them of what 
they think works best for them.
    Mr. Pappas. Okay. And so to the VA witnesses here today, I 
am wondering if you have a specific timetable to address the 
governance concerns that were raised in the IG report.
    Ms. Oshinski. We are working on a number of areas that were 
identified as deficiencies in the OIG report and, as I said, we 
really appreciate this opportunity to discuss where we are 
moving.
    We are looking at a variety of improving our staffing 
models and that is scheduled to be completed by the end of 
September. So we would have a better idea of whether or not our 
current staffing model needs to be improved. We are also 
looking at a whole variety of issues, making sure that we have 
the correct position descriptions and we will have an 
appropriate career ladder. One of the issues that we have had 
is it is hard to retain individuals without having that.
    These are all pieces of what I think is the governance 
structure that we need to put in place. The Secretary is 
looking at all the actions that we are taking, and will be 
evaluating and making a determination as to where we move 
forward in the future.
    Mr. Pappas. Earlier this year at a Committee hearing I 
asked Dr. Stone, head of the Veterans Health Administration, 
about this specific issue, and he indicated that a new VA 
Police policy is in the works. I am wondering if you could 
comment on the scope of a new policy that might be coming 
forward, recognizing it may not yet be complete, but I am 
curious when we might see further details on that.
    Ms. Oshinski. My sense would be--again, I believe we are 
trying to put together all the pieces, trying to address all 
the things that the IG identified as deficiencies, putting 
those together and bringing it forward to the Secretary and the 
Deputy Secretary to look at where we need to move.
    So I am not certain exactly when that will be completed, 
but we do have a number of pieces that will be finalized by the 
end of the calendar year.
    Mr. Pappas. So the steps you indicated that the Department 
is taking in your testimony, those are just a few of the 
improvements you are looking to make and, if I am just building 
off of what you just said, we would expect to see a more 
comprehensive, formal package at some point in the near future?
    Ms. Oshinski. Yes, I certainly believe that that is true. 
We are working--and not believe, I know that is true--we are 
working on a whole host of issues on what can we do to improve 
both our police presence and the governance of those police. 
One of the last things that any one of us want is confusion at 
a medical center when there is an issue. I mean, we all want to 
know what the chain of command is, because that is the way to a 
successful resolution of any incident. So, if there is 
confusion, we need to correct that.
    Mr. Pappas. Well, thank you.
    One last question before my time is up. I want to address 
the issue of inspections and the IG report discovered that 74 
percent of VA medical facilities with police units weren't 
inspected in a timely manner, and I understand that the VA's 
Office of Security and Law Enforcement recently hired 
additional inspectors. Ms. Oshinski, what progress has the VA 
made in the backlog of police unit inspections and what trends 
are you beginning to see in the overall assessments that have 
been performed?
    Ms. Oshinski. One of the things, a major impact is hiring 
additional staff to complete the inspections. I probably will 
hand this over to Mr. Jackson and Mr. Hanretta to give 
specifics, but right now we are looking at, we hired ten 
additional staff in OSLE, and they are moving forward and 
keeping up with the current schedule.
    So, Mr. Jackson, can I turn it to you?
    Mr. Jackson. Yes, sir. In the IG report, it mentioned the 
shortages of the agents that were going out to conduct 
inspections. Since as of March of 2019 now, the ten bodies that 
we had requested are now all on board. Right now we had 
scheduled 88 inspections for this year, we are on the glide 
path to get all of those complete. And so we were thankful for 
the number of people.
    As we continue to move forward, we will continue to look at 
those additional resources that may be needed to continue to 
keep that momentum in the right direction.
    Mr. Pappas. Well, thank you. I would like to follow up on 
this a little bit later maybe in round 2, my time is up right 
now, but I appreciate your response.
    In lieu of Ranking Member Bergman having his 5 minutes of 
questioning, he would like to defer to Mr. Mast of Florida, who 
is joining us here today. Welcome. Our colleague Mr. Mast of 
Florida has asked to participate in today's Subcommittee 
hearing, and I would like to request unanimous consent to allow 
him to join us on the dais. If there are no objections, I now 
recognize him for 5 minutes.
    Mr. Mast. Thank you. Thank you for deferring as well. I 
appreciate, you know, getting me up to the front, you didn't 
have to do that. Thank you.
    Listen, this is an important issue to me. In a span of 
about 10 days back in February, we had both a shooting in the 
ER of our West Palm Beach VA medical center and a suicide. This 
is something that I believe at the same hearing you were 
speaking about before, a budget hearing, you spoke to Secretary 
Wilkie about this issue, and he said, to quote him, ``As a 
result of what happened at Palm Beach, we have a new security 
protocol in place that will apply to the entire country. We 
have undergone''--have undergone, we have already done it, we 
have undergone--``a complete review of our security 
protocols''--not we are going to undertake this--``We have 
undergone a complete review of our security protocols. What 
happened at Palm Beach with the wounding of three medical 
professionals has led us to revamp the entire way we do 
security,'' because I will tell you that the method that was 
used there was entirely unexpected.
    I find it hard to believe that somebody pulling a firearm 
out of a scooter is an entirely creative attack, it is not that 
creative. I am worried that that is unexpected when we look at 
how we assess threat. But in that, I would like you to tell us, 
Ms. Oshinski, what has been revamped for the entire country in 
the way that we do security?
    Ms. Oshinski. Any time there is a serious event at any one 
of our medical centers, we look in depth at what occurred and 
try to make improvements, because the last thing any of us want 
is to repeat a mistake that leads to another serious incident. 
So in this case I think there are a number of things that 
occurred.
    One thing is we are asking at all sites that when people 
come[KKJ1] to the emergency department in a wheelchair or some 
other of their own vehicle they be put in a wheelchair that is 
owned by the medical center. So that is one way. It is very 
difficult, I think, when you have somebody who is handicapped, 
we need to make sure that they are in our owned equipment. So 
that is one thing that happened. I mean--
    Mr. Mast. So, to pause, you are saying that now at West 
Palm Beach VA, if you showed up in a scooter or your own 
wheelchair, you are going to be transferred into a VA-owned 
wheelchair?
    Ms. Oshinski. Correct.
    Mr. Mast. Is that occurring as we speak?
    Ms. Oshinski. That is what the police are telling me, yes.
    Mr. Mast. Interesting. Please continue.
    Ms. Oshinski. Yes. Another thing that is again at West Palm 
Beach, sometimes we find that there are concerns that we missed 
in the vulnerability assessment. So, for example, we are 
undergoing a construction project at West Palm Beach, because 
we need to make sure that we have adequate coverage by cameras 
and that is happening, another thing. We are also doing more 
extensive rounding in our parking lots. West Palm Beach is not 
the only place where that needed to happen.
    We need to reiterate with everyone that part of our 
responsibility is making sure that the parking facilities where 
veterans are coming in are patrolled. So another part of what 
we are doing as a result of what happened at West Palm Beach.
    Mr. Mast. So let me pause on the patrol there. In the same 
week, I went to both the West Palm Beach VA and the Orlando VA. 
You drive to the Orlando VA, they are checking for IDs prior to 
driving on the campus, albeit I only had to hold any ID up in 
my window, I didn't have to actually roll down my window; 
nobody read it, nobody looked at it. I could have been anybody, 
but they did at least ask that I hold an ID up in my window. I 
think there is some hole in there. West Palm Beach VA, you 
drive directly onto the campus. Obviously, just between two 
VAs, there is a little bit of disconnect between what is going 
on with security. They say, if you have seen one VA, you have 
seen one VA, and there is a lot of truth in that.
    So, to ask a couple specific questions on my local VA, West 
Palm Beach. One, will there be checking of IDs as people enter 
the campus? And, two, are people's IDs supposed to be checked 
as they actually enter the hospital? And I ask this because I 
am constantly getting photos and reports from my veterans going 
in and out of the VA often saying, there is nobody at the front 
door, there is nobody checking IDs or sometimes there are. What 
is the standard of what is actually supposed to occur there and 
is it being enforced?
    And when you talk about needing more agents to go out there 
to conduct inspections, what about the VA director that is 
actually in charge of the facility being responsible for their 
facility?
    Ms. Oshinski. On a variety of fronts, yes, we should be 
checking an ID, and I am told that that is now happening at 
West Palm Beach. So I will verify that and get back to you to 
make sure that is happening, whether it is at that--
    Mr. Mast. Your standard is, somebody enters the hospital, 
their ID should be checked?
    Ms. Oshinski. That is what I am going to verify--
    Mr. Mast. Thank you.
    Ms. Oshinski [continued]. --yes, but that is my 
understanding of one of the things that was to occur as a 
result of the incident.
    And I completely agree with you, one of the reasons we want 
to do this review of what should be adequate staffing based on 
risks, one of the areas that we are continuing to look at and I 
think recognizing with what we had heard from GAO and the OIG, 
that our vulnerability assessments need to be improved at our 
sites. We will be in the process of doing that and, obviously, 
one of the things that we will consider as we--moving West Palm 
Beach high into that implementation period.
    Mr. Mast. Thank you for the time, Mr. Chairman.
    Mr. Pappas. Thank you.
    I now recognize Miss Rice for 5 minutes.
    Miss Rice. Thank you very much, Mr. Chairman.
    I would like to just tell the story of one of my 
constituents, because I think that it really illustrates a lot 
of the issues that we are talking about here today. His name is 
Jean Telfort and he served 10 years in active duty, during 
which time he was deployed to Afghanistan. At the time of his 
separation from active duty, he was determined to have a 100-
percent service-connected disability, on top of being diagnosed 
with PTSD.
    In November of 2017, he required spine surgery because of 
an injury that was related to his service, and that surgery was 
meant to prevent him from becoming--losing--suffering 
paralysis, long-term paralysis. After the surgery, he was told 
he was going to need physical therapy and occupational therapy, 
and the VA told him that he could get that in a community-based 
facility outside of the VA in his community, near his community 
where he lived, and for a number of months that is where he 
went to get his physical therapy and his occupational therapy.
    At one point, and I have yet to be able to discover why 
this happened, the VA told him you are no longer eligible for 
Choice and care in the community, and you have got to come back 
to a VA facility that was in East Meadow--near him, but still 
it was a VA facility. He went to the VA facility to continue 
his PT and his OT and, when he got there, he was told that they 
don't have that kind of treatment that they could give him at 
that location. So he had to go to the VA hospital in Northport 
to address his issue. He spent 2 days going over there trying 
to continue his PT and his OT, and this was over a 5-week 
period, during which time the pain was increasing, because he 
was not doing the requisite therapy that he needed post-
surgery.
    On June 6th, 2018, he returned to Northport for his second 
PT appointment and got into a verbal disagreement with the MSA, 
who was the medical specialist assistant who was behind the 
counter, who was not--according to other witnesses, was not 
being very responsive to his needs. She then at some point 
called the VA Police, who showed up; they tried to de-escalate 
the situation. He sat down. They talked to the MSA, who in his 
opinion was giving wrong information. He engaged the police 
officer again and at some point, he was literally body-slammed 
onto the ground with his arms twisted behind his back. This is 
someone who is post-spinal surgery. He informed them of that, I 
can't breathe, I just had spinal surgery.
    They kept him on the ground until a physical therapist who 
had treated him before came and said, he is of no danger, 
please take the handcuffs off, they refused to do that. They 
transported him to the hospital, where they handcuffed him to 
the bed. He was treated by a doctor.
    I mean, you can imagine not just the physical pain that he 
was going through, but the emotional and mental anguish that he 
suffered as a result of this. He asked for the police report, 
to get the police report, so he could--and he wanted to speak 
to--if they were going to speak to witnesses, he wanted them to 
get his side of the story as well.
    They never spoke to him the first two weeks. They told him 
they would send him the police incident report in the mail. 
Instead, what he got in the mail was two summonses to appear in 
Federal magistrate court for criminal charges of whatever they 
were, p.s. they shouldn't have been anything. He goes to court. 
There is no judge, he is told to come back. He goes back on 
another date, nothing happens again.
    This incident keeps going on and on and on.
    So it implicates not just the difficulty of ensuring that 
people get the proper health care they need, whether it is 
within the VA or outside of the VA, but also the treatment that 
people get, if and when it is determined that the VA Police 
need to get involved.
    So the questions that I have are many. First of all--and, 
by the way, I have asked to speak to the head of the VA Police 
in the district at the VA in Northport and I have yet, as a 
congressperson, been able to get any contact information for 
that individual, so that I can try to find out what is going 
on. We were able to determine that the two summonses that this 
veteran received in Federal court are now in the status of 
deferred prosecution, which, as a former prosecutor, says to me 
that this is what you do when you say, okay, if you stay out of 
trouble for 6 months, this case is going to go away. He never 
saw a judge, never had his day in court, and this is now in the 
status of deferred prosecution.
    On top of that, it was discovered during this review that 
the MSA and/or others improperly accessed Mr. Telfort's medical 
records and input information regarding this specific encounter 
that was factually incorrect, which--I mean, I can't even begin 
to go into the privacy issues that are implicated there. My 
understanding is that the people who put that information and 
improperly accessed his account were reprimanded and retrained. 
In my opinion, they should have been fired.
    So I don't even know to whom my question goes to here, 
but--and I respect the position that the VA Police are in. This 
is a very tense situation that most of them are coming into 
when they are summoned to a situation that is happening at a VA 
facility, I get that, I understand that. That is why it is 
incredibly important for them to get the proper training, 
especially dealing with individuals who have been diagnosed 
with PTSD and also have very serious physical manifestations of 
those injuries as well.
    So I hope we have a second round. I never do this, I never 
take up all of my time doing this, but I just felt so compelled 
to make this case for this veteran.
    And, Mr. Chairman, I would also ask unanimous consent if I 
could enter a statement, his statement for the record on behalf 
of my constituent Mr. Jean Telfort, so it can be part of this 
record as well. And I hope we have a second round, so we can 
dig a little deeper into the issues implicated by this one 
story.
    Thank you, Mr. Chairman. I apologize for going over.
    Mr. Pappas. Without objection, we will take that statement, 
and I do hope we can do a second round here as well.
    Mr. Pappas. With that, I would like to recognize Mr. 
Cisneros for 5 minutes.
    Mr. Cisneros. Thank you, Mr. Chairman.
    I just want to follow up on that question, because the same 
thing happened at the Loma Linda facility a few years ago in 
Riverside, California, where an individual got frustrated, was 
going to try to attempt to go to the Long Beach facility. They 
pretty much took him, slammed him to the ground, hit his head, 
and he ended up dying of a seizure.
    In the training that you said that they get, you talk about 
de-escalation training they receive when they are going through 
this. How effective is that training? I mean, really, what are 
they doing over there? And why is this--if they are getting 
this training, why are we having these situations where 
individuals are being injured or hurt or killed?
    Ms. Oshinski. It is really troubling. It is hard for me to 
sit here and answer questions after hearing, you know, the 
stories that you are talking about. And certainly any time 
anything like this occurs, we have to go back and question 
whether or not the things that we are doing are being 
effective. But I do believe we have looked at our training and 
continue not only to do the initial training, but retraining of 
people.
    We obviously need to do more. We need to take a look at 
what we can learn in each of these situations where we have 
something that did not occur as we would hope. I mean, we are 
trying to do de-escalation not only with the police officers, 
but in the case that Miss Rice brought up really de-escalation 
on the part of the MSA or the individual who was checking that 
person in to be seen, we need to make sure that we have that 
happening across all our medical centers, because we are 
continuing, as I said, to try and balance what is happening in 
a health care environment with people maybe feeling threatened. 
I know that we are trying to do even more.
    If I could recognize Mr. Hanretta, if you would like to 
talk about some of the things that we are trying to do for 
training individuals to ensure that we do not have 
inappropriate use of force.
    Mr. Hanretta. Thank you again. And I will also defer to Mr. 
Jackson, who leads the law enforcement training center, but I 
am very proud of the performance of our police officers having 
completed the Law Enforcement Training Center program. Ten 
weeks, much of it focused on de-escalation scenarios. And so, 
again, these two incidents are very unfortunate, and I do not 
believe characterize the VA Police in the field serving our 
Nation's veterans.
    But let me ask Mr. Jackson to specifically talk about the 
level and type of training that VA Police officers receive.
    Mr. Jackson. Yes, sir. Years ago, the VA Police Academy was 
only 5 weeks, and that was in 2009, and we saw the need to 
increase that to 8 weeks. And one of the reasons was because we 
wanted to get much, much more, many more scenario-based 
situations whereby an officer had to deal with a veteran that 
was in distress. Even after the 8 weeks, we looked again and we 
said, we need to increase this some more to 10 weeks.
    So in that 10-week period, although we do the traditional 
law enforcement, a lot of it more than any other police 
academy, deals with the de-escalating situations and actually 
putting them in scenarios whereby they have to pass that 
scenario in order to graduate. And this is done from the day 
that they walk into the academy until the day that they leave.
    Now, the second issue is that--was--
    Mr. Cisneros. I don't want to--I don't mean to cut you off, 
and if you have more to answer, if you could submit that for 
the statement. But the other thing I want to address, too, and 
maybe it is the stress on the officers themselves. You know, 
you have a shortage, and your written statement says of 700 
officers. Some of the facilities are undermanned by 20 percent 
and higher. I mean, how much overtime are these individuals 
working? How much stress is put on them? How much--if they are 
not working overtime, how undermanned are they where they are 
having to do so much more? What is the stress level of our 
officers over at the VA facilities?
    Ms. Oshinski. We are looking--one of the efforts that we 
made with the introduction of the VISN level police officers is 
that is one of the things that they are taking a closer look 
at. What is our use of overtime and how is that impacted by our 
vacancy rates? So we are--I do think it is something that we 
need to be concerned about. We are looking at it and hopefully 
we can resolve it with the efforts that we are making to 
increase our staffing.
    Mr. Cisneros. All right. I yield back my time.
    Mr. Pappas. Thank you. I would now like to recognize Mr. 
Rose for 5 minutes.
    Mr. Rose. Thank you, Mr. Chairman. I think as we analyze 
the threat landscape across the country, it is clear that our 
VA facilities are a top target for future terrorist attacks and 
instances of lone wolf shooters, if you really want to his 
America's psyche and where it hurts, it should attack our VA.
    And so I have--in my capacity as Subcommittee Chairman of 
Intelligence and Counter terrorism on Homeland Security really 
dug into what the NYPD is doing from a partnership basis, as 
well as other major law enforcement agencies. And I have not 
seen the VA participating in any of this. NYPD Shield program, 
monthly meetings, weekly meetings, so on and so forth. Can you 
speak to the partnerships that you all are engaging in, 
particularly from a counter terror standpoint and potentially 
where you could improve?
    Ms. Oshinski. I am not able to address that. I would have 
to submit that for the record. I apologize.
    Mr. Rose. Okay. Does anyone have anything to speak to in 
terms of partnerships from what you are doing on a counter 
terror standpoint?
    Mr. Hanretta. Sure, let me just address one of the 
responsibilities of the VA police chief at the facility level 
is to build the relationship with the local law enforcement. 
And so one of those challenges is the ongoing threat of an 
active shooter. And so between VA police who train very 
specifically at the facility level to respond to that type of 
incident, we partner with local law enforcement. We also 
partner with the FBI in the area. So--
    Mr. Rose. Does every VA facility have a plan in place, 
written, to respond to an active shooter incident?
    Mr. Hanretta. I would defer. My response would be yes, it 
is a requirement. And so I know they practice that because it 
is a real threat and a concern by everyone: the VA police, our 
employees, as well as the veterans coming to our facilities.
    Mr. Rose. Okay. Moving on to the issue of suicide. We all 
are aware of these recent instances of suicides on VA campuses. 
From your experience from--I know you all are looking into this 
issue, what are we doing well and what can we do better?
    Ms. Oshinski. You are right. We are looking very 
intensively at that. One of the things that I do need to share 
with you is that we have gotten to be a lot more proactive in 
looking at social media, for example, because one of the things 
that we are finding out, because as you discussed, many of the 
people using the VA as a place where they would look to harm 
themselves often post or are talking to people on social media. 
So we have really upped our review of that.
    And actually just recent--just last week, stopped somebody 
who had posted on Facebook and said where they were going to do 
this, that our police found them at the front door of that 
facility and were able to talk with them and get them admitted.
    I am actually really glad you brought this up. Mr. Cisneros 
talked about Loma Linda and I feel compelled to just share a 
story about Loma Linda. Back in March, a police dispatcher got 
a call from somebody who said that they were going to commit 
suicide. The policeman kept them on the phone and found out his 
location, which was on the third floor of the parking garage at 
Loma Linda. This happened, I think, at 12:55. By 1:10, we had 
talked that individual down. We had brought other police there 
and a psychiatrist from the site. And so it was another save.
    So I think we are trying to do many of those things. What 
can we do to make sure that we are listening when veterans call 
and talk to us?
    Mr. Rose. Is there any formal document related to what you 
are doing on social media? Any policy, SOP?
    Ms. Oshinski. There is not an SOP that I am aware of.
    Mr. Rose. Okay. So I just want to put two requests on the 
record for you all.
    Ms. Oshinski. Yes, sir.
    Mr. Rose. If you could potentially try to put something on 
paper regarding social media, I think you are very correct to 
be focusing on that. And number two, if you could please make 
an effort to formally partner with what the NYPD is doing and 
the FBI in New York City, because we are not seeing it and I 
think there is more to do because you are a target.
    Ms. Oshinski. Okay. Thank you.
    Mr. Rose. Thanks.
    Mr. Pappas. Thank you, Mr. Rose. I would now like to 
recognize Ranking Member Bergman for 5 minutes.
    Mr. Bergman. Thank you, Mr. Chairman. We deal with a lot of 
words and phrases here, both in our testimony: verbal and 
written, and words and phrases count. Any time we say, ``No 
timelines,'' that means in my mind, what I hear is no sense of 
urgency. Because if you don't have a specific timeline, you 
can't do markers against it. So I would urge specific 
timelines. Sometimes timelines are not met, but without a 
timeline, you don't know where you are in the process and that 
is particularly confusing.
    And speaking of confusion, I have got three pages here of 
the wired diagram of--just starting with the secretary of the 
VA down. That is--if you can understand this diagram, I think 
we have one step to the next step in success, which is the 
future organization of the VA and how we can get these things 
done with a sense of urgency. So Mr. Missal, your testimony 
states, ``Responsibility for the police program is splintered 
between VHA and the VA Office of Operations, Security, and 
Preparedness.'' I am curious about your use of the word 
splintered in that statement. Would you please explain what you 
mean by splintered?
    Mr. Missal. What we found in the audit that there were two 
different groups that had responsibility over the police force, 
and by using the word splintered, what we were trying to drive 
home is there was real confusion about who had what 
responsibility, and even within senior people, whether or not 
they were properly implementing that responsibility.
    We found a general awareness with some people of what they 
should have been doing here and this is such an important area, 
for it to work properly, the governance structure has to be 
very solid. And in this situation, we found that there was 
confusion. And given how disparate the two groups were, having 
confusion just exasperates the problem.
    Mr. Bergman. So being splintered kind of added to the 
confusion?
    Mr. Missal. Correct.
    Mr. Bergman. Ms. Oshinski, in your written testimony, you 
state that officers are matrixed to OSLE and that OSLE has 
tacit oversight of all police units in the field. What do you 
mean by matrixed to OSLE and tacit oversight, and do you think 
that this contributes to the confusion identified by the IG?
    Ms. Oshinski. Thank you for the opportunity to clarify. So 
by matrixed, I believe we are talking about the idea that we do 
this as a partnership. Honestly, as we try to do law 
enforcement in a health care environment, we need to have both 
sides represented in a review of what it is that we are trying 
to accomplish.
    So while there may be the direct line authority at the 
medical center, there is also authority within OSLE to make 
sure that people are trained, to make sure that if there are 
any issues that they help to determine how we overcome those. 
Any time there is an issue with use of force, that 
automatically goes to OSLE[OSP3]. There is nothing that is 
further done by medical center leadership about anything like 
that.
    So there are specific areas that belong to OSLE and some 
areas that belong to the medical center.
    Mr. Bergman. Yes, I would suggest to you that a police 
force kind of resembles the military in that it has a specific 
chain of command. So when you are executing a plan or when 
things go bad, people know whose responsibility is what. And 
that specific chain of command goes a long way towards having a 
more effective police force.
    Ms. Oshinski, in your written testimony, you say that VA 
believes that there is a need for additional staff. I want to 
explore that for a minute here. We regularly hear that VA has 
between 35 to 40,000 vacancies. Correct me if I am mistaken, 
but Congress funds those vacant positions through the annual 
appropriation, which means that VA has the money to fill the 
approximately 700 vacant police officer positions. How did VA 
determine that it needs additional staff when it has 700 
vacancies and has not completed its police staffing model?
    Ms. Oshinski. One of the areas, I think, that at least from 
the initial overview is we do not have a good career path where 
we can encourage people to stay at the VA, and to become 
leaders in--
    Mr. Bergman. There is a career path, and let me see if I am 
over on my time. I hope we are going to get a second round, but 
my next--I will yield back, but my next question is do we need 
a career path to hire someone initially? And I yield back.
    Mr. Pappas. Thank you. We will get to that in round two. 
Our colleague Congressman Seth Moulton of Massachusetts has 
asked to participate in today's Subcommittee hearing, and I 
would like to request unanimous consent to allow him to join us 
on the dais. And if there are no objections, I would like to 
recognize Congressman Moulton for 5 minutes. Hearing no 
objection, you are recognized, Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman. Mr. Hanretta, I have 
entered into the record reporting from the Boston Globe about 
an incident at the Bedford VA in Massachusetts where an off-
duty officer drove drunk to a car dealership, ran out of gas, 
demanded to be filled up by the car dealership, and when they 
refused, threatened the car dealership employees with a gun.
    After he was arrested, he cursed out the local cops, 
stuffed the holding cell with toilet paper, and beat his own 
head against a cell door. Now, he had previously been dismissed 
from the State Troopers, had his gun permit revoked by the town 
during a domestic incident complaint, and had two sexual 
harassment charges filed against him. This exemplary officer 
was selected to be an instructor at the VA's police academy.
    So can you just help me understand how that would happen? 
How this man, of all people, would be sent to the elite VA 
police academy?
    Mr. Hanretta. Sir, that current situation is currently 
under investigation. The way we work together with VHA is when 
a VA police officer is identified for either criminal conduct 
or performance, then the Office of Security and Law Enforcement 
sends a special agent down to take an independent look at the 
situation.
    In this particular case, at the time of his selection, we 
were not aware of all of the background circumstances. 
Immediately, that offer was rescinded and again it is 
currently, to the best of my knowledge and I will defer to Mr. 
Jackson, under investigation based on his behavior.
    Mr. Moulton. Well, sir, I am glad to hear it is under 
investigation. It is my understanding that perhaps part of the 
reason why you did not understand all of those allegations is 
that the chief of the Bedford VA police at the time, Shawn 
Kelley, was shielding the man from scrutiny. And that's until 
the Boston Globe spotlight team inquired about the incident.
    This gentleman, Shawn Kelley, I understand, is now under 
consideration to be the chief of VA police in Manchester, New 
Hampshire. Is that true?
    Mr. Hanretta. Sir, let me refer to Mr. Jackson, because I 
know he is intimately involved with this case.
    Mr. Moulton. Okay. Mr. Jackson?
    Mr. Jackson. Sir, I know nothing about him going to another 
area to be a chief of police. Nothing at all. That would be 
news to myself.
    But secondly, also while he did go down to the law 
enforcement training center, he was never an instructor because 
he had to shadow some of the experts first before being fully 
authorized --
    Mr. Moulton. Well, Mr. Jackson, I am glad to hear that. I 
have no idea why this man would even wear the uniform, period.
    Now, I am also aware that--using Bedford as an example, 
that despite the fact that the VA in Bedford has a larger 
police force than the Town of Bedford, than the one that 
protects the entire community, every time the VA Bedford police 
force makes an arrest, they have to call the Bedford police to 
do it, because they don't actually have the authority to--I may 
perhaps messing up the precise terminology here, but they don't 
have the authority to actually have that arrest.
    So you have a VA police force in charge of a small fraction 
of the number of people in the town and they don't even have 
arrest authority. So I mean, I guess my fundamental question is 
why does this force even exist? I mean, shouldn't we just be 
paying a little bit of this money, a small portion of the $3 
million budget of the VA Police Department every year just to 
the Bedford Police Department, which have to--it seems like 
they have to do all of their work anyway, including dealing 
with the discipline of VA officers.
    Ms. Oshinski, would you like to take that?
    Ms. Oshinski. Yes, thank you. One of the things, just to 
emphasize--you are right. We don't do arrest authority on the 
VA campuses. We have been talking about how--what our police do 
is really try to balance security and health care in the same 
environment, and the de-escalation techniques.
    I recognize that there seems to be some variance with what 
you do in the community. Any time we find anything criminal, it 
goes to the OIG. So we really are trying to keep a safe and 
secure environment, not community policing.
    Mr. Moulton. Well, I am over time, but I would just suggest 
that if the hallmark of the VA police is their de-escalation 
techniques, that doesn't seem to be what was employed by this 
officer when he couldn't get gas from a car dealership when he 
was driving drunk. Mr. Chairman, I yield back.
    Mr. Pappas. Thank you very much, Mr. Moulton, and I hope 
that the VA could confirm that information about a potential 
transfer for the Committee if that, in fact, has taken place.
    Ms. Oshinski. We will, thank you.
    Mr. Pappas. Well, thank you. We would like to have some 
additional questions. I recognize myself for 5 minutes.
    Mr. Missal, I wanted to address something that was brought 
up in the testimony from the VA. OSLE has ``tacit oversight 
over all of the VA police units in the field.'' And I am 
wondering if you could help me understand that term, how that 
fits into the current model of their governance structure and 
whether or not you feel that that is a sufficient model.
    Mr. Missal. In our report, we identified issues with the 
governance structure. I don't know the term tacit oversight. 
What I would say is they certainly have responsibility to 
inspect the police, to identify any issues that they find. One 
of the things we identified in our report was that they were 
late in their inspections, which obviously hinders their 
oversight.
    The actual oversight of the individual police force, 
though, goes through VHA and they have the direct authority.
    Mr. Pappas. Could you talk a little bit about other police 
units and Federal agencies, how they are structured? I know 
your report brought up a couple of examples, Federal Protective 
Service and the U.S. Park Police. How does that compare to what 
we are seeing in the VA?
    Mr. Missal. We were looking at those other services more 
for the number of officers and in terms of what they were 
covering, what their jurisdiction was, as opposed to their 
actual structure. VA is unique the way it is organized from 
other Federal agencies. So it is really hard to compare.
    Mr. Pappas. Okay. I am wondering if we could talk a little 
bit about the pay incentives that exist to help recruit and 
retain officers. First, I just want to acknowledge that the 
Subcommittee received a written statement from the American 
Federation of Government Employees, which represents many VA 
employees. And I ask unanimous consent that we include that 
statement for the record.
    Ms. Oshinski, as you consider steps to reduce vacancies, 
are you in discussion with labor representatives?
    Ms. Oshinski. those discussions would be at the local 
level, not at the national level. So there may be discussions 
ongoing at the various sites as we put out different 
advertisements. And also, just responding to some of the things 
you were saying, also the special salary rates and trying to 
look at what is happening in the community, if we are having 
trouble retaining.
    And I think there is a difference. You can often hire 
people in, but to retain them, once we have trained them down 
at the LETC, trying to keep them often requires that we go out 
and do special salary rates.
    Mr. Pappas. Are there any constraints, statutorily 
speaking, or any others that might exist that need to be 
addressed for the VA's pay scale to become more competitive?
    Ms. Oshinski. A couple of things that we are doing, as I 
was talking earlier, it may not have come across, but as we do 
position descriptions, making sure that we have people graded 
at the right level. One of the things that we have done is 
raise the entry level to a GS-6, so that you are looking at a 
higher level than at a 5. Just finding that the comparison to 
the private sector, which is where we get many of our police 
officers. You know, 85 percent of our police are veterans. So 
they often have experience in the military, or they may have 
worked in a local community policing agency.
    So we have to do more to make sure that our rates are 
competitive. So we are looking both at special salary rates and 
what are the entry level and then the steps up the chain.
    Mr. Pappas. And how has that trended over time? Where 
things stand today in terms of the vacancy rate if we look back 
1 year, 5 years, you know, how have we gotten to this point 
today?
    Ms. Oshinski. I would have to submit that for the record.
    Mr. Pappas. Okay. Well, I thank you very much for your 
responses there, and I would like to recognize Mr. Mast for 5 
minutes if he has additional questions.
    Mr. Mast. Thank you again, Mr. Chairman. You know, I want 
to step back on something that Mr. Moulton was speaking about. 
I wanted to get to it earlier, but I want to make sure I have 
the numbers correct in what you are saying. There are currently 
4,000 filled VA police force positions and 700 vacancies; am I 
understanding that correctly? So the total full up would be 
4,700 roughly?
    Ms. Oshinski. Roughly, yes.
    Mr. Mast. So at 4,000, by 139 facilities, we are talking 
about roughly 28 officers per facility. Would that be a rough 
average, or would you see these disbursed in a little bit 
different way?
    Mr. Oshinski. Well, the number of individuals at the site, 
obviously, is going to base on the size of the numbers of 
people who are there, the size of the campuses, and as we 
talked about, security vulnerabilities that may exist at some 
places or not exist at others.
    Mr. Mast. Could you give me an example of one of the larger 
facilities that has, say, the most officers versus one of the 
smaller facilities that has a more minimal number of officers 
of that 139?
    Ms. Oshinski. You would be looking at places that perhaps 
have multiple campuses, a Palo Alto, California.
    Mr. Mast. How many officers might they have at Palo?
    Ms. Oshinski. I would have to look at what that might be.
    Mr. Mast. Okay. So on average, so if we moved that up to 
4,700, we would be looking at--well, we could place 33 per 
facility if we did that. Is it that there are not enough 
officers? Is that enough--Mr. Moulton, he did reference the 
fact that in some of his cities, that is more officers that are 
in law enforcement for an entire city on a VA campus, on a 
single VA campus, maybe multiple campuses, but that is quite a 
few officers. Where--
    Ms. Oshinski. So one of the things that we are doing is 
trying to develop that staffing model to address these very 
items. There may be things with vulnerabilities where we need 
more. There may be places where we need less. So we are doing a 
staffing assessment. We are going to be using, I think we had 
talked about data that had been put together by Homeland 
Security in assessing those. That will be considered, and we 
hope to have those staffing models completed by September 30th.
    Mr. Mast. Thank you. And to go back to something that you 
referenced; I want to make sure that I understand this 
correctly. You said in response to the shooting in West Palm 
Beach VA, that individuals coming into the hospital in a 
wheelchair would be--or a scooter, some sort of mobility 
platform, would be removed from their mobility platform, moved 
into a hospital mobility platform, wheelchair, something to 
that effect, whatever it may be. Do you mean anybody and 
everybody coming into the facility or just those going into the 
ER?
    Ms. Oshinski. Just[KKJ4] those going into the emergency 
department.
    Mr. Mast. What do you see is the difference in terms of 
threat assessment between somebody going into the ER versus 
somebody coming in a mobility platform anywhere else? Not that 
I by any means think this is the most well thought through 
approach to doing this, but in the threat assessment, what is 
the difference?
    Ms. Oshinski. And I would have to look into that in more 
detail. So I would have to get back to you. I do think that 
some of the issue, honestly, you know, when we talk about 
staffing levels has been having people be able to transport 
folks. So I think we are looking at probably a staging as we do 
that.
    I know often when you go to a community hospital, you are 
put in their chairs when you go there. So I think that really 
is probably what is happening in the community as well.
    Mr. Mast. I have done threat assessment, very specifically 
as my work prior to a Member of Congress on a number of 
different fronts with different agencies, and I see absolutely 
no difference in terms of the threat of whether somebody is 
going into the ER for perhaps some sort of trauma. If we are 
talking about some instance of being institutionalized for 
mental health counseling, that might be different. But I see no 
difference in the threat of somebody coming into the ER versus 
another part of the facility in terms of what they could bring 
in that would pose a threat to people within the hospital or 
patients within the hospital, anybody else.
    So what I would like to ask of you is would you please be 
willing to give me a brief--come into my office, give ma brief 
on everything that has been put into place, since we are not 
going to be able to cover all of this?
    Ms. Oshinski. Certainly.
    Mr. Mast. Thank you. I appreciate that and I yield back, 
Mr. Chairman.
    Mr. Pappas. Thank you. I recognize Ms. Rice for 5 minutes.
    Ms. Rice. Thank you, Mr. Chairman. I think, Mr. Jackson, 
you would be the appropriate person for me to start with these 
questions. So there were findings by your agency that the 
officers reacted in Mr. Telfort's case in an appropriate way. 
And the writing--the way that they come to the conclusion, it 
just seemed very perfunctory and like there was not going to be 
any other outcome other than the police acted accordingly.
    I just want to know if you can explain to me why you think 
it was appropriate, first of all, to take the physical action 
that they did against Mr. Telfort and hold him down, knowing 
that he was--because he told them that he had just had spinal 
surgery, et cetera, and he was in pain, couldn't breathe. And 
then further, why they issued those summons to go to Federal 
court, which now have, for all intents and purposes been 
dismissed.
    Mr. Jackson. Yes, ma'am. When the incident happened on the 
6th and I saw a letter that came in from your office, I think 
within 2 days later we were there because one incident of a use 
of force is one too many. One of our special agents talked to 
Mr. Telfort for at least a couple hours or so, and got with him 
immediately.
    The issue there was with the collection of the evidence and 
the other witnesses that said what Mr. Telfort did, that was 
the conclusion after gathering all of the evidence without--we 
didn't have any video, just the witnesses that came forward and 
said, well, based upon what the police said to him and what Mr. 
Telfort said, the witnesses that the officers acted properly.
    Now, I think to further that along, what we have done to 
improve working with VHA to improve healthcare professionals 
dealing with veterans is our verbal defense in a healthcare 
training that we have gone out to do to give so many employees 
that deal with veterans. So the first reaction is not to call 
the police but to diffuse the situation before calling the 
police.
    Ms. Rice. So I agree with you and I think I turn to Ms. 
Oshinski to talk about that. The medical support assistant is 
the first line of defense in terms of any de-escalation that 
may be necessary. And I think it is--forgetting about what the 
police did once they were called, it seems to me that it is 
uncontroverted that the MSA was in a unique position to de-
escalate the situation by just addressing his frustration and 
understanding that this is a man in pain. And it doesn't seem 
like any de-escalation attempts were made at that level.
    Do people in those positions, medical support assistants, 
get de-escalation trainings too since they really are in the 
front lines and you don't get to a police situation unless you 
have an MSA or someone in that position to call them?
    Ms. Oshinski. Before I answer, I just have to say how 
difficult it was to listen to what you described during your 
discussion and I am so sorry about what happened, and I wish we 
could go back and do it over again. But going back to the MSA, 
yes, they do get some de-escalation training. I think one of 
the issues with those individuals is they are that front face 
to veterans, and we need to make sure that we are doing the 
right things related to customer service, related to--
    Ms. Rice. They are all about--to me, if they don't do 
proper customer service, what is their job?
    Ms. Oshinski. Right.
    Ms. Rice. They are actually not the ones giving the 
healthcare treatment. They are not doctors. They are simply 
there to address the specific needs that are right in front of 
them. And you can understand someone in Mr. Telfort's situation 
being frustrated. I still haven't gotten an answer as to why it 
was okay for him to get PT and OT in a community setting and 
then have the rug pulled out from under him and said, ``No, you 
have to go back to a VA facility.'' And then go to that 
facility and be told, ``We can't give you that kind of care 
here. You have to go to the hospital, which is an hour and a 
half away.''
    I mean, the level--I would--I have not been--well, some 
people think I probably should be diagnosed with--anyone who 
works here should be diagnosed with that, but here is a person 
who has been diagnosed with Post Traumatic Stress Disorder and 
he--just at every step of the way, from the time that he was 
getting the treatment that he needed to have the rug pulled out 
from under him is just--and I am not holding you responsible 
for that. I am still trying to get answers as to why that 
happened.
    But let me just, because my time is almost up. It is up. 
Just one quick question. I am so troubled by the fact that 
someone, and it is not even clear from the documentation that I 
have gotten, someone accessed his medical records and put 
defamatory information in them that was proven to be factually 
incorrect. To me, there is no amount of retraining that that 
person can undergo to understand that what--that was not a 
training issue. That was this person trying to cover their 
behind and put in information that was intentionally false to 
put them in a better light and the victim in a worse light.
    And so to me, I don't know if you are the right person to 
ask this to, but that person should be terminated. If you 
violate a sacrosanct rule that you are not allowed to access 
someone's medical records, unless it is for purposes of putting 
in what treatment you have just given them, that was not the 
case here. So I would ask--maybe we can follow up after this 
hearing on that because I haven't gotten sufficient--I don't 
think, you know, retraining someone like that is the answer. It 
is not a retraining. It is an ethics issue.
    So I would appreciate it if we could follow up after this 
hearing.
    Ms. Oshinski. Yes.
    Ms. Rice. Thank you. And I apologize again for going over. 
Thank you, Mr. Chairman.
    Mr. Pappas. Thank you. Ranking Member Bergman is recognized 
for 5 minutes.
    Mr. Bergman. Thanks again, Mr. Chairman. As Mr. Moulton 
pointed out in his example, the VA hired an officer who had 
been dismissed from the State Police and had had his gun 
privileges, his weapons privileges pulled for domestic 
violence. Have you or anyone in the VA reviewed the medical 
center's HR department to understand and correct problems in 
the screening process? I mean, how did this fall through the 
crack? Any thoughts?
    Ms. Oshinski. It is frustrating, obviously, for us as well. 
We have looked at screening processes--
    Mr. Bergman. Did you look at this one in specific?
    Ms. Oshinski. Not this one in specific.
    Mr. Bergman. Okay. I would suggest, then, rather than--this 
is an example where we can go in the specifics and then go back 
to generalities, as opposed to generalities to work towards 
specifics. So please take that for action.
    Mr. Missal, recommendation four, number four of your 
December 2018 report concerned the hiring of additional OSLE 
investigation staff. OSLE has hired nine of the ten additional 
authorized employees, yet their recommendation remains open. Is 
this sufficient to close out the recommendation? In other 
words, is nine out of ten good enough, and if not, what remains 
for VA to do before you will close that recommendation?
    Mr. Missal. With respect to that recommendation, what we 
asked for was an assessment. So we don't know if nine, ten is 
the right number. When we make a recommendation, we typically 
ask for documentation about what the plan is to complete what 
needs to be done. And my understanding is as of now, we have 
not yet gotten that assessment. We asked about it. As soon as 
we see that assessment, if it is satisfactory, we may be able 
to close this recommendation.
    Mr. Bergman. Okay. Ms. Oshinski, your written testimony 
states that there were 375 officers who left the VA in fiscal 
year 2018. Later in that paragraph, you state that the number 
two reason for officers leaving was a lack of opportunity for 
advancement. Would you please elaborate on that lack of 
opportunity for advancement for the police?
    Ms. Oshinski. One of the issues has been that we talk about 
a career ladder. So detective, inspector, assistant chief, 
chief. One of the things that happens is that you can't give 
people enough opportunities to move up. And so what we are 
trying to look at is what is the appropriate level? How much 
supervision do we need? And I think we have pointed out here 
there are multiple opportunities where we can improve how we do 
business. Some of that by how we supervise those individuals, 
so that we give people an opportunity to move up.
    When it feels like people are not moving out of chief 
positions and there is nowhere for someone to go, they begin to 
look at jobs in the community. Because once they have some of 
these credentials, they certainly are able to qualify for jobs 
with other law enforcement agencies.
    Mr. Bergman. Okay. Ms. Oshinski, would you please provide 
the Committee an example or two of the evidence practices from 
other Federal agencies and private industries that you have 
incorporated into the police program?
    Ms. Oshinski. One of the things that we are now trying to 
do in regard to hiring, we were looking at how do private 
sector facilities, because I think as Mr. Missal so aptly 
talked about, it is difficult sometimes to look at other 
Federal agencies because VA is very different, to look at other 
healthcare agencies, how do they hire their armed guards 
because about half of the hospitals around the country do have 
them.
    What we are finding, and what we have now--are now 
beginning to implement is a two pronged approach to interview 
process. The first interview would be with individuals who are 
law enforcement oriented to make sure that people meet those 
basic law enforcement qualifications. The second interview 
panel, and the people who make it through that panel would go 
to a second panel, which would look at what is their fit in a 
healthcare environment? How do they fit in our mechanism of 
using de-escalation as the primary way of doing thing? How 
would they recognize someone who is suffering from mental 
illness who may be in danger of suicide?
    So that is a major one that I think we are implementing 
right now.
    Mr. Bergman. Okay. And I see my time is about up. I would 
just like to ask one question, if you would please, I am 
guessing you don't have this information at your fingertips, so 
please take it for the record. But with nearly 700 vacancies in 
the police services, I am quite curious as to whether VA police 
officer is eligible to join the union, and if so, how many 
police officers receive taxpayer funded union time? So if you 
would take that for the record, I would appreciate it. And Mr. 
Chairman, I yield back.
    Mr. Pappas. Thank you, Mr. Bergman. Just a couple closing 
points before we conclude the hearing. I would just first like 
to underscore the non-partisan nature of the issues and 
questions regarding the department's police force and I really 
look forward to working with Ranking Member Bergman and all of 
our Subcommittee Members on both sides of the aisle as we 
continue to monitor developments, review policies, receive 
additional reports, and press for improvements, which is really 
essential.
    I want to thank all of our witnesses for their testimony 
today. Inspector General Missal, I would like to express thanks 
to you and your staff for the ongoing oversight work in this 
critical area. Your report on the VA policing policies and 
today's testimony represent critical findings, and as we heard, 
has already made a positive impact. Our Subcommittee staff will 
keep in close touch with you with the ongoing audits of VA 
policing.
    And to Ms. Oshinski, Mr. Hanretta, and Mr. Jackson, I thank 
you for your testimony as well. Your appearance today clearly 
represents a willingness for the department to work with 
Congress to move forward to improving the policies and 
resources of the VA's police. Please also convey on behalf of 
the Subcommittee our thanks to the work of the many officers 
and staff throughout the VA police force.
    Members will have 5 legislative days to revise and extend 
the remarks and include extraneous material. And without 
objection, the Subcommittee stands adjourned.

    [Whereupon, at 11:27 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

       Prepared Statement of Inspector General Michael J. Missal
    Chairman Pappas, Ranking Member Bergman, and Members of the 
Subcommittee, thank you for the opportunity to discuss the Office of 
Inspector General's (OIG's) oversight of the Department of Veterans 
Affairs (VA) security and law enforcement program (police program). The 
OIG is committed to serving veterans and the public by conducting 
oversight of VA programs and operations through independent audits, 
inspections, reviews, and investigations. That oversight is 
particularly compelling when the safety of VA personnel, veterans and 
their families, and visitors to VA facilities are at issue. How VA 
police providing those protective and law enforcement services are 
guided, managed, and supported certainly warrants close scrutiny.
    The Office of Security and Law Enforcement's (OS&LE) Police Service 
group has different divisions responsible for such functions as public 
safety, investigations, infrastructure protection, executive 
protection, and police unit inspections. My statement focuses on the 
policing duties carried out primarily in VA medical facilities, 
particularly the effectiveness of the police program governance 
structure and the challenges VA has faced in staffing and overseeing 
its police workforce. I would like to highlight the findings from a 
December 2018 OIG report, Inadequate Governance of the VA Police 
Program at Medical Facilities and our most recent staffing report. \1\ 
I would also like to note that the OIG subsequently published a report 
on Mismanagement of the VA Executive Protection Division in 2019, which 
falls within the Police Service group. \2\ That report found that VA 
failed to develop adequate threat assessments and written policies, 
which contributed to security vulnerabilities. Common challenges 
identified in these and other OIG reports such as staffing shortages, 
the splintering of oversight responsibilities, confusion about roles, 
and lack of clear guidance can undermine VA's well-intentioned goals 
and objectives.
---------------------------------------------------------------------------
    \1\ Inadequate Governance of the VA Police Program at Medical 
Facilities, December 13, 2018, and OIG Determination of Veterans Health 
Administration's Occupational Staffing Shortages FY 2018, June 14, 
2018.
    \2\ Mismanagement of the VA Executive Protection Division, January 
17, 2019.

---------------------------------------------------------------------------
BACKGROUND

    VA's Veterans Health Administration (VHA) provides health care to 
over 6 million veterans in its medical facilities. Federal law provides 
the VA Secretary with the authority and responsibility to protect 
patients, visitors, employees, and VA property. \3\ VA police officers 
provide security and law enforcement services at VHA facilities, as 
well as Veterans Benefits Administration offices collocated with VHA 
facilities, and some VA national cemeteries. They are authorized to 
carry firearms in an official capacity, investigate criminal activity, 
and arrest individuals on department property for offenses committed 
within VA's jurisdiction and consistent with other law enforcement 
agency agreements. \4\ VA's police force consists of approximately 
4,000 officers, at 139 of 141 VA medical facilities, which places it 
among the 10 largest law enforcement workforces in the Federal 
government. Other Federal agencies provide security at the remaining VA 
healthcare facilities, such as the Manilla Outpatient Clinic.
---------------------------------------------------------------------------
    \3\ Title 38, United States Code, Sec.  901, Authority to prescribe 
rules for conduct and penalties for violations.
    \4\ Title 38, United States Code, Sec.  902, Enforcement and arrest 
authority of Department police officers.
---------------------------------------------------------------------------
    Responsibility for the police program is splintered between VHA and 
the VA Office of Operations, Security, and Preparedness (OSP). In 
addition, on September 14, 2018, VA Secretary Wilkie reassigned OSP to 
the Assistant Secretary for Human Resources and Administration and the 
position of Assistant Secretary for OSP was eliminated.
    VHA has historically had primary responsibility for the police 
program, including ensuring VA police officers were qualified and 
maintained physical security on agency property. \5\ VA policy 
designated the Deputy Under Secretary for Health for Operations and 
Management (DUSHOM) as the senior VHA official (together with Veterans 
Integrated Service Network (VISN) directors) for ensuring police 
program requirements are achieved, such as maintaining enough officers 
on duty with proper equipment and supervision. \6\ Each of the 18 VISNs 
have designated a VISN police chief who provides technical guidance and 
assistance to their respective network medical facilities. Primary 
responsibility for operations, however, falls to the local VA police 
chiefs who report to their medical facility directors, who in turn are 
responsible for verifying police officers' qualifications, ensuring law 
enforcement activities are accomplished, and maintaining enough 
officers on duty at the facility to protect people and property.
---------------------------------------------------------------------------
    \5\ Department of Medicine and Surgery Supplement MP-1, Part 1, 
Change 42, Chapter 2, Investigation, Security and Law Enforcement 
Policy, paragraph 11a (2) and 13d (1), July 23, 1986.
    \6\ VA Directive 0730, Security and Law Enforcement, paragraph 3g, 
December 12, 2012.
---------------------------------------------------------------------------
    OSP is a VA staff office that provides limited department-level 
program oversight of VA's security and law enforcement activities. 
Aligned under OSP, the OS&LE is responsible for developing and issuing 
national police program policies, protecting the VA Secretary and 
Deputy Secretary, investigating potential criminal incidents at VA 
facilities, and conducting inspections of medical facility police units 
to determine if program requirements are being met. Police inspections 
provide a check on the adequate implementation of critical program 
operations such as physical security, rapid response activities, police 
staffing, and investigative activities. They are also meant to identify 
any corrective actions needed. The police inspections include 
assessments of risks to patients, visitors, and employees.

VA GOVERNANCE OVER THE POLICE PROGRAM WAS INADEQUATE FOR CONDUCTING 
    EFFECTIVE OVERSIGHT

    The OIG received complaints through the its Hotline related to the 
accountability and performance of some VA police officers at medical 
facilities. The OIG recognized the importance of examining how 
oversight of VA police performance is conducted at a system-wide level. 
The focus of the audit was to determine whether the VA police program 
has an effective governance structure in place, meets requirements for 
size and qualifications, and conducts adequate inspections to ensure 
compliance with policies and procedures.
    The OIG determined that VA did not have adequate and coordinated 
governance over its police program to ensure effective management and 
oversight for its police officer workforce at its medical facilities 
nationwide. The OIG found that the governance problems occurred and 
persisted, in part, because of confusion about police program roles and 
authority between VHA and OS&LE. The DUSHOM told the audit team that 
OS&LE was responsible for centrally managing police program activities 
at VHA facilities. However, OS&LE did not have that responsibility and 
did not have authority, for example, to manage funding and pay 
decisions for VA police, to hold medical facilities accountable for 
adhering to police program policies, or to require staff within VHA to 
help perform timely inspections of medical facilities. Governance 
issues also stemmed from a lack of a centralized management or clearly 
designated staff within VHA to manage and oversee the police program. 
Because the assignment of OSP to VA's Human Resources and 
Administration Assistant Secretary was made after the audit work was 
conducted, that office's oversight role in this mix was not evaluated.
    The OIG audit revealed four key areas of concern:

    <bullet>  Systemic tracking and assessment of police program 
operations and performance by VHA and OS&LE
    <bullet>  Facility-appropriate police officer staffing models and 
officer shortages at VA medical facilities
    <bullet>  Timeliness of inspections of police operations at VA 
medical facilities
    <bullet>  Guidance on how VA police officers investigate the 
alleged misconduct of facility leaders who manage the police program or 
control its resources

VHA and OS&LE Did Not Track and Assess Police Program Operations and 
    Performance in a Systemic and Effective Manner

    The OIG determined that the Office of the DUSHOM lacked mechanisms 
to systematically track and assess police program operations and 
performance at medical facilities, such as whether facilities 
maintained sufficient numbers of police officers to protect patients, 
visitors, and employees. The DUSHOM told the OIG that he had been 
unaware of trends or patterns occurring within the police program at VA 
medical facilities. His office also did not track and assess VA police 
workload indicators system-wide, including the number and type of 
arrests, traffic violations, and investigative activities. In February 
2018, he said that he had not received the results of OS&LE's 
inspection activities for FY 2017. He also reported not having received 
any inspection results for FY 2018, except for facilities whose police 
programs were rated marginally satisfactory or unsatisfactory by OS&LE. 
Similarly, OS&LE did not prepare trend analyses or assessments of its 
inspection results and recommendations on police program performance at 
medical facilities.

VA Lacked Facility-Appropriate Police Officer Staffing Models and Had 
    Extensive Shortages of VA Police Officers

    The OIG found that VA could not have confidence that facilities 
maintained sufficient numbers of police officers to provide security 
and protection services given oversight system deficiencies. VHA lacked 
police officer staffing models that could be tailored to the needs of 
similar types of medical facilities to determine the appropriate number 
and composition of police officers. The OIG also found that many 
medical facilities were below their individual authorized levels of 
police officers. According to information provided from the Office of 
the DUSHOM for the OIG audit, VHA reported 4,881 police officer 
positions were authorized as of January 31, 2018, but 875 positions (18 
percent) were vacant or in the process of being filled. Fifty-six of 
the 139 medical facilities with VA police operations (40 percent) 
reported officer vacancy rates of 20 percent or higher. Concerns about 
policing shortages in the audit are consistent with the OIG's staffing 
report released in June 2019, which examines medical facility 
directors' self-reported clinical and nonclinical staffing shortages. 
With regard to nonclinical shortages, police were the second highest 
reported nonclinical staffing need. \7\
---------------------------------------------------------------------------
    \7\ OIG Determination of Veterans Health Administration's 
Occupational Staffing Shortages FY 2018, June 14, 2018.
---------------------------------------------------------------------------
    VA medical facility staff at five sites that the OIG visited noted 
several factors contributing to recruitment and retention challenges, 
including problems obtaining local facility approval to hire police 
officers due to changes in facility management. \8\ In addition, VA 
police salaries were not competitive with other local and Federal 
agencies and there were competing priorities in hiring healthcare 
staff. The OIG determined that four of the five medical facilities 
visited had over 20 percent vacancy rates. The medical facilities did 
not fully use staffing strategies such as recruitment planning or the 
use of special salary rates or incentives.
---------------------------------------------------------------------------
    \8\ The OIG selected five VA medical facilities for on-site review 
in North Little Rock, Arkansas; Denver, Colorado; Washington, DC; 
Albany, New York; and Columbia, South Carolina.
---------------------------------------------------------------------------
    The OIG found that the lack of facility-appropriate police staffing 
models and insufficient police coverage at VA medical facilities can 
affect security activities. VA medical facilities with insufficient 
numbers of police officers had to borrow officers from other facilities 
and use overtime pay to augment staffing levels to ensure adequate 
coverage. \9\ For example, the Hampton, Virginia, VA Medical Center 
(VAMC) borrowed 23 police officers from nine other medical facilities 
to work at the VAMC from December 2017 through April 2018, based on 
facility records. A shortage of police officers at the VAMC had been a 
concern since at least June 2017, when nine of 23 authorized police 
officer position were vacant.
---------------------------------------------------------------------------
    \9\ According to the VHA Chief Financial Officer, VHA facilities 
spent approximately $26.6 million in fiscal year (FY) 2017 on overtime 
pay for its police services.

---------------------------------------------------------------------------
OS&LE Did Not Conduct Timely Inspections of VA Police Operations

    The OIG determined that as of September 30, 2017, OS&LE did not 
timely inspect 103 of the 139 VA medical facilities with police units 
(74 percent). OS&LE written procedures required its staff to inspect VA 
medical facility police units on a two-year cycle. On November 7, 2014, 
OS&LE changed that inspection process to require inspections of medical 
facility police units on a four-year cycle. OS&LE updated its own 
internal process on that same day to include an expectation that VISN 
police chiefs would perform midcycle (two-year) inspections. However, 
most VISN police chiefs did not start this process, and OS&LE did not 
receive any inspection reports in FY 2017 as expected. \10\
---------------------------------------------------------------------------
    \10\ On April 14, 2018, OS&LE reverted to requiring its own staff 
to inspect VA medical facility police units on a two-year cycle.
---------------------------------------------------------------------------
    Based on the number and type of deficiencies identified in the 
inspection, OS&LE assigns police units an overall rating of 
outstanding, highly satisfactory, satisfactory, marginally 
satisfactory, or unsatisfactory. OS&LE written procedures require its 
staff to reinspect VA medical facility police units within one year for 
a marginally satisfactory rating and within 90 or 180 days for an 
unsatisfactory rating (depending on the governing policy in place at 
that time).
    The OIG found that of the 103 VA medical facility police units not 
inspected within prescribed time periods

    <bullet>  95 VA medical facility police units had overdue cyclical 
inspections by an average of 286 days, or about 10 months, over the 
two-year inspection cycle;
    <bullet>  Four VA medical facility police units previously rated as 
marginally satisfactory were not reinspected within one year (with the 
average for these untimely reinspections at 345 days, or close to 12 
months, beyond the one-year reinspection requirement); and
    <bullet>  Four VA medical facility police units previously rated as 
unsatisfactory were not reinspected within the applicable 90- or 180-
day reinspection requirement (with the average for these reinspections 
at 162 days, or just over five months beyond the applicable timeline).

    The OIG determined that these delays were attributed to OS&LE 
having limited staff available for inspections. Since 2014, OS&LE had 
six employees in its inspection division to inspect medical facility 
police units along with other divisional duties. There were only three 
employees available for inspections by the end of FY 2017 (that is, 
September 2017) because the other three employees were reassigned 
within OS&LE to assist with the protection of the then VA Secretary and 
Deputy Secretary. Having overdue inspections of medical facility police 
units limits VA's ability to know whether programs or police officers 
are performing adequately, and whether previously identified 
deficiencies are corrected. VA has taken important steps in this area. 
OSP requested 10 additional employees for FY 2019 to support OS&LE 
operations including inspections of medical facility police units. As 
of April 2019, OSP reported that nine employees were hired with seven 
of them solely focused on performing police inspections.

VA Officers Lacked Guidance on Investigating Facility Leaders Who 
    Manage Their Program or Control Its Resources

    Under the supervision of the medical facility director, VA police 
officers investigate reported crimes and misconduct, and the police 
chiefs brief and consult with the facility director on the status of 
all investigative activities to determine further investigative or 
referral actions. The OIG identified two instances in which VA police 
officers performed investigations into alleged misconduct of facility 
leaders who managed the police program or had control over program 
resources at their own medical facilities. These types of 
investigations occurred because VA did not have written guidance 
specifically for VA police on how to appropriately investigate 
misconduct allegations involving their local facility leaders, 
including coordination with other offices and documenting decisions.

RECOMMENDATIONS

    The OIG made five recommendations to the VA Deputy Secretary that 
focused on the areas of governance, staffing, the inspection program, 
and processes.
    1. Clarify program responsibilities between the Veterans Health 
Administration and the Office of Operations, Security, and 
Preparedness, and evaluate the need for a centralized management entity 
for the security and law enforcement program across all medical 
facilities.
    2.Ensure police staffing models are implemented for determining 
facility-appropriate levels for officers at medical facilities.
    3.Make certain medical facilities use strategies to address police 
staffing challenges such as having documented recruitment plans for 
police officer positions that include a determination of the need for 
special salary rates and incentives.
    4.Assess the staffing levels for the Office of Security and Law 
Enforcement police inspection program and authorize and provide 
sufficient resources to conduct timely inspections of police units at 
medical facilities to help identify program compliance issues.
    5.Ensure procedures are developed for appropriately handling VA 
police investigations of medical facility leaders.

    At the time the OIG report was published, the acting VA Deputy 
Secretary concurred with all recommendations and requested that 
recommendation five be closed. However, the OIG considered this 
recommendation to be open until written procedures were developed for 
VA police officers concerning how they should appropriately handle 
their investigations of medical facility leaders. As of April 2019, VA 
responded that it plans to have the Office of General Counsel and 
Office of Accountability and Whistleblower Protection coordinate to 
assist with language to be crafted for inclusion into the latest VA 
Handbook 0730. This will provide procedures for VA police to refer 
allegations against medical facility leadership to the proper 
investigative authority. Until the OIG receives documentation, that 
recommendation, and all others, remain open.

ONGOING WORK ON THE POLICE PROGRAM

    From information gleaned from the police governance audit, the OIG 
learned that the information systems VA police use to make resource-
allocation and other key management decisions have created obstacles to 
their work. Effective program governance relies on information 
management to respond to risks and achieve program objectives. 
Recognizing the critical link between these systems and monitoring 
capabilities, the OIG is currently conducting additional audit work on 
information management within the police program. This work will focus 
on whether the VA police program's information management strategy and 
systems provide its leaders and workforce with the information needed 
to manage and guide operational performance. The audit team will 
identify the causes of VA's challenges in transitioning to a new police 
information system and the impact on the operation and governance of 
the program.

CONCLUSION

    Having an effective governance structure is critically important to 
the functioning of any program. The confusion about program roles and 
authority makes it difficult for VA to have any degree of certainty 
that its police personnel and resources are being effectively deployed. 
The safety of veterans, VA staff, and visitors to VA medical facilities 
is of paramount importance to VA. To achieve its goals for protecting 
those individuals and VA property, the governance structure, staffing 
issues, and proper program oversight processes must be addressed. At 
the center of those decisions are whether the governance structure 
should be more centralized and, if so, how that should be accomplished. 
That includes determining whether medical facility directors are best 
positioned to provide oversight of police functions and how information 
flows both up and down the various levels of VA to ensure that 
staffing, policies, practices, and oversight are effective.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions you or other Members of the Subcommittee may have.

                                 <F-dash>
                  Prepared Statement of Renee Oshinski
    Good morning Chairman Pappas, Ranking Member Bergman, and Members 
of the Subcommittee. Thank you for the opportunity to discuss VA's 
current and future policing strategy. I am accompanied today by Kevin 
Hanretta, the Principal Deputy Assistant Secretary for Operations, 
Security, and Preparedness (OSP), and Frederick Jackson, the Executive 
Director for the Office of Security and Law Enforcement.

Introduction

    VA police officers are Federal law enforcement officers who serve a 
critical role in securing VA property and protecting patients, 
visitors, and employees. These officers provide security and law 
enforcement services at all VHA Medical Centers and at Veterans 
Benefits Administration (VBA) offices that are co-located with VHA 
facilities. These officers are also sometimes responsible for providing 
security and law enforcement services at VA national cemeteries.
    Ensuring physical security at VA Medical Centers (VAMC) can be 
complicated because VA police must balance safety and security concerns 
with providing an open and welcoming health care environment to our 
nation's Veterans.
    To address physical security issues, VAMCs have implemented: panic 
buttons, badge restricted access to certain areas, limited guest hours, 
security camera monitoring, emergency preparedness training, and more. 
In addition to physical security enhancements, VA facilities have also 
increased police presence on VA campuses.
    To accurately allocate resources, Physical Security and 
Vulnerability Assessments are performed at the local level every two 
years to identify risk at each VAMC as requirements may differ. For 
example, what works in a rural hospital may not make sense in an urban 
setting. The one crucial, consistent requirement at all VAMCs is 
collaboration between law enforcement and health professionals when 
responding to violent incidents or police calls for service in the 
field. It is VA's goal to ensure health care providers and police 
personnel work collaboratively while protecting the safety of our 
unique Veteran population.
    The Office of Security and Law Enforcement (OSLE) is responsible 
for ensuring that VA has an effective program in place for the 
protection of Veterans, staff, and visitors who use VA facilities. 
Through an active program of policy reviews and development, along with 
researching and applying the most modern of police techniques, OSLE 
works to ensure that VA facilities have highly effective VA Police 
programs. Further, Special Agents/Inspectors within OSLE have 
responsibility for certain regions of the country and provide direct 
technical and logistical support to VA Police Chiefs and VHA facility 
management within their assigned regions. These Special Agents/
Inspectors are in regular contact with their respective Police Chiefs 
and facilities and are available to respond as needed when situations 
arise.

Structure and Accountability

    The primary responsibilities of the VA Police are to deter and 
prevent crime, maintain order, and investigate crime (ranging from 
misdemeanor to felony offenses), that may have occurred within the 
jurisdiction of the Department. VA Police are also our frontline staff 
with each Veteran. How VA Police handle law enforcement/safety issues 
is a critical component of the customer service culture instilled at 
each individual facility. As such, police/law enforcement staff are 
some of our most important customer service ambassadors.
    Currently, VA police forces fall under the organizational structure 
and management control of VHA with each local police unit being aligned 
under the Medical Center Director's office. VA Police are 
organizationally structured as an administrative service line within 
the Medical Center, but they are matrixed to OSLE for all matters 
related to criminal activity or specific to law enforcement. OSLE, 
organizationally located within OSP, has tacit oversight of all VA 
Police units in the field through issuance of VA policy, inspections of 
police programs, and the training of VA police officers.
    Oversight and accountability for law enforcement activities is the 
responsibility of the Chief of Police at each Medical Center. The Chief 
of Police is directly accountable to the Medical Center leadership and, 
for all matters related to criminal activity, use of force, or 
investigations, to OSLE.
    VA does not have a centralized budget line for VA Police. The 
budget for police services is allocated by facility leadership based on 
their unique needs and requirements. Annually, as with all services 
lines, the Chief is responsible for formulating a budget and presenting 
their budget requirements for the following fiscal year to the Chief 
Financial Officer at the VAMC.

Federal Law Enforcement Best Practices

    Other Federal agencies with law enforcement responsibilities 
similar to VA have a centralized program office that oversees 
operations as well as some oversight functions. These agencies include, 
for example, the Department of Homeland Security's Federal Protective 
Service, the Department of Interior's National Park Service, and the 
Army Military Police Corps.
    As VA continues to modernize its police force, we will continue to 
incorporate the very best evidence-based practices from Federal and 
private industries. To incorporate those best practices, VA will need 
to look to private sector health care organizations and our university 
affiliates who use armed police services in addition to those best 
practices from Federal entities. VA has a unique responsibility to 
provide a healing environment while balancing the need to provide 
safety and security to Veterans, staff, and visitors.

VA Police Officer Training

    VA police officers' encounters and methods of law enforcement are 
often unique because their work is conducted in and around a clinical 
or medical setting. Enhanced methodology and incident solutions 
(including advanced interpersonal communication, conflict resolution, 
and problem-solving skills) are required to be successful. VA Police 
also often encounter trained military Veterans suffering from medical 
and psychological traumas. Due to the unique policing environment, all 
VA police officers receive specialized training at the VA Law 
Enforcement Training Center (LETC).
    Located in North Little Rock, Arkansas, the VA LETC is accredited 
by the Federal Law Enforcement Training Accreditation Board and is 
recognized as meeting the highest standards in Federal law enforcement 
training. The VA LETC embraces a 21st century policing framework to 
teach new police officers how to respond in a Veteran-centered 
environment unique to VA. It is the sole Federal government provider of 
a training program that emphasizes the use of non-physical techniques 
to ensure the safety of patients, visitors, and staff while maintaining 
order at VA facilities. VA police officers are taught the necessary 
skills to resolve incidents in a humane, respectful manner.
    At the VA LETC, VA police officers go through a 10-week basic 
training course where they receive 30.5 hours of classroom training 
specific to de-escalation and conflict management techniques with a new 
special focus on suicide awareness and prevention. Officers also 
complete nearly 24 hours of practical based scenarios in which they are 
expected to successfully employ and utilize de-escalation skills to 
affect positive outcomes in real-life scenarios. VA leadership will 
continue to focus on providing security education that incorporates 
issues specific to health care. As our police officers play an active 
and vital role in the clinical arena, security training with an 
emphasis on health care will enable our police officers to use their 
independent judgement to assess situations and determine appropriate 
responses to our unique Veteran population.
    VA police officers also receive continuous in-service and 
specialized training beyond the basic training course. Moreover, other 
government agencies use the VA LETC as a training site due its 
reputation for excellence. These agencies include the Department of the 
Air Force Police, Navy Master of Arms, National Institute of Health, 
National Geospatial Institute, and the Federal Bureau of Prisons.

VA Police Officer Staffing Statistics

    VA recognizes that the Department has a shortage of 700 police 
officers and needs to do a better job with the hiring process. VA has 
initiated changes to the hiring process for facility level chiefs. A 
recent best practice identified a large private sector organization in 
Missouri that includes two interview panels, one comprised of law 
enforcement personnel and the other of hospital leaders, to ensure the 
organization is hiring ``an individual that can operate in both 
worlds.'' The use of two interview panels will ensure VA hires police 
that are a good fit with our health care environment and the Veterans 
we serve. Policing in a health care environment is different from 
traditional policing. VA currently employs nearly 4,200 police 
officers. The average yearly growth rate from fiscal years (FY) 2014-
2018 was 3.1 percent. There were 402 net gains (increases above losses) 
for a total of 12.3 percent growth since 2014. Despite the 3.1 percent 
growth, VA believes there is a need for additional staff. The average 
age of VA police officers is 45 years and their average tenure is 12 
years. Many of our VA police officers are currently retirement eligible 
or working with the Agency as a second career. The average salary for 
this occupation is approximately $53,000 for FY 2019. The median salary 
cited by the Bureau of Labor Statistics is slightly over $63,000 for 
police and detectives nationwide.
    Total loss rates from FY 2014 - FY 2018 range between 7.5 percent 
and 10.3 percent, and voluntary quit rates range between 4.9 percent 
and 6.7 percent.
    In 2018, 32.4 percent of VA police officer turnover was due to 
transfer to another Federal agency; 20.6 percent transferred to state 
and local government agencies; and 13.2 percent of police left VA 
employment for the private industry or self-employment. The remaining 
33.8 percent of the turnover was due to retirements, resignations 
without explanations, and removals.
    VA recognizes the need to improve retention of these officers. The 
VA Exit Survey provides 15 possible responses as reasons for leaving 
VA. For analysis, these reasons are consolidated into six thematic 
categories: advancement, personal/family, workplace issues, 
compensation/benefits, retirement, and no response. Recognizing lack of 
opportunity and compensation are key reasons for loss, VA is currently 
working on a structured career ladder and assisting facilities in 
submitting special pay rates where VA police officers are compensated 
below the prevailing rate in the surrounding community.
    VA's police workforce response rate on the exit survey is low at 18 
percent (68 responses out of 375 losses in FY 2018). Of those that 
responded, the most frequently cited reasons for leaving VA were: (1) 
workplace issues; (2) lack of opportunities for advancement; and, (3) 
compensation/benefits.
    In 2016, OSLE introduced a VA Police Officer Staffing Model 
initiative that has been piloted at select facilities. When completed, 
this model will establish Department-wide staffing requirements for 
VHA, VBA, and the National Cemetery Administration by determining the 
optimal number of police officers using demographic information from 
local facilities.

Medical Center Director

    VA Handbook 0730, Security and Law Enforcement provides 
requirements for security and law enforcement at VAMCs. Medical Center 
Directors are required to provide for the protection of persons on 
Department property in accordance with the standards set forth in 
Handbook 0730; provide for the protection of government property; 
ensure law enforcement activities are accomplished in a legally and 
technically correct manner; maintain and equip a sufficient number of 
VA police officers to ensure the protection of persons and property; 
and ensure that law enforcement and security measures are sufficient to 
meet such requirements.
    Additionally, the Joint Commission, the organization that accredits 
over 21,000 U.S. health care organizations and programs, sets standards 
and expectations at a leadership level for the Medical Center Director. 
At a minimum, the Medical Center Director is responsible for assessing 
and addressing security risks associated with the environment of care 
that could affect patients, staff, and other people coming to the 
hospital's facilities and controlling access to and from areas 
identified as security sensitive. The Medical Center Director is also 
responsible for identifying and implementing procedures related to 
security incident responses at a medical facility, training staff on 
security procedures, and orienting all staff to both the procedures to 
be followed during a security incident and the respective 
responsibilities of staff, including orienting staff to how such 
security procedures will affect staff, patients, and visitors.
    Medical Center Directors, in conjunction with Chiefs of Police, 
OSLE, OSP, and the VA LETC collaborate and build community partnerships 
aimed at addressing specific medical and security issues relevant 
within the Veteran community. For instance, the VA LETC in conjunction 
with VHA clinical leaders, developed community training to bolster 
suicide prevention initiatives. The training provides guidance on 
identifying individuals who may be ``at risk'' for suicide and 
identifies prevention measures that can be implemented. The 
collaborative training emphasizes recognition of the warning signs of 
suicide and encourages individuals to assist in bringing ``at risk'' 
individuals to VA facilities for care before they reach a point of 
crisis.

Office of the Inspector General (OIG) and Government Accountability 
    Office (GAO) Reports

    VA appreciates the reviews done by both OIG and GAO as these 
reports, though critical, have strengthened VA's police service. In 
February of 2019, the VHA Executive In-Charge directed the Veteran 
Integrated Service Networks (VISN) to assign a full-time police chief 
to each VISN office. Each Network currently has a VISN Chief that 
oversees facility police operations on a full-time basis. The VISN 
Chiefs' function is to improve processes and address deficiencies, 
identify facilities that need assistance with requesting special pay 
rates for officers, implement mitigation plans for facility specific 
physical security vulnerabilities, examine trends in the police 
program's evaluations, develop systematic strategies to address 
challenges, and to work closely with OSLE and Human Resources to 
develop an appropriate and overdue career ladder for VA officers. In 
keeping with the advances made at the VISN level, VA is also looking at 
ways to improve the governance structure at the Department-level to 
ensure better accountability, proper application of policy, and to 
allow for rapid deployment of assets, as needed.
    VHA has also expanded oversight of the police service by hiring a 
VHA Senior Security Officer, developing a New Chief Orientation Guide, 
working with OSLE and VA LETC to train hospital leaders overseeing 
police services, developing national mitigation strategies based on 
findings from inspection reports and physical security vulnerabilities 
assessments, developing enhanced communication reporting to ensure VHA 
senior leadership are aware and responsive to critical incidents and 
security risks, and by instituting daily communications between VHA 
senior leadership and VISN Chiefs.

Conclusion

    We look forward to this opportunity for our improvement efforts to 
further restore the trust of our Veterans and continue to improve 
access to care inside and outside VA. Our objective is to give our 
Nation's Veterans the top-quality care they have earned and deserve 
while keeping them safe within our walls. Chairman Pappas, we 
appreciate this Subcommittee's continued support and encouragement in 
identifying and resolving challenges as we find new ways to care for 
Veterans.
    This concludes my testimony. My colleagues and I are prepared to 
respond to any questions you may have.

                                 <F-dash>
                       STATEMENTS FOR THE RECORD

AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO
    Chairman Pappas, Ranking Member Bergman, and Members of the 
Subcommittee, the American Federation of Government Employees, AFL-CIO 
and its National Veterans Affairs (VA) Council (AFGE) appreciate the 
opportunity to submit a statement for the record on oversight of the 
VA's police force. AFGE represents more than 700,000 Federal and 
District of Columbia government employees, 260,000 of whom are proud VA 
employees including the vast majority of rank and file members of the 
VA police force.
    AFGE appreciates the thorough oversight conducted by the VA Office 
of Inspector General (OIG) in its December 13, 2018 report, 
``Inadequate Governance of the VA Police Program at Medical 
Facilities.'' As the largest labor representative of front-line medical 
professionals and support personnel at VA medical facilities across the 
nation, we regularly hear concerns about the safety of veterans, their 
families and the employees who care for them because of chronic short 
staffing of VA police and other deficiencies in the operation of the VA 
Police Program.
    The VA currently has over 50,000 unfilled positions, and the vast 
majority of those unfilled positions are at medical facilities. AFGE 
was dismayed by Secretary Wilkie's recent testimony that he is not 
planning to fill all the vacant positions. It is also problematic that 
the current vacancy data reported by the VA does not break down the 
data by position. Lawmakers, employee representatives and veterans' 
groups would be better able to hold the VA accountable for adequate 
police staffing if such data were available.
    The short staffing of VA police greatly affects facility safety, 
especially in emergency rooms and mental health units. Most facilities 
appear to have only two officers assigned to cover the entire medical 
facility campus, regardless of the number of patients treated, building 
size or distance between buildings on the same campus. Similarly, VA 
police coverage is absent in many Community-Based Outpatient Clinics 
and other VA outpatient clinics. Consequently, clinic employees feel 
especially vulnerable because they often must rely exclusively on 
overtaxed local police forces in the event of a dangerous incident.
    AFGE local presidents at medical facilities in Florida, Missouri 
and other locations where veteran suicides have occurred in the recent 
past have also pointed to short staffing of police officers as causing 
a critical gap in workplace and patient safety. VA provides invaluable 
training to its police officers to respond to veterans threatening to 
take their own lives. These specially trained first responders are 
spread too thin to do their part to help prevent such tragedies.
    Our Hampton, Virginia local president has reported that due to the 
48 percent police vacancy rate at her facility identified by the OIG, 
the facility may have to resort to the costly contracting out of 
security officers with less specialized training. Prior efforts to use 
contract security officers at the Hampton facility were unsuccessful 
and diverted precious VA dollars away from other needs. We have also 
heard that other facilities are considering contracting out this vital 
function.
    Our Palo Alto, California local reported that management's response 
to chronic short staffing of police officers is to restrict the ability 
of officers to take leave and require frequent graveyard shifts, 
leading to fatigue and low morale. Human Resources has not been 
responsive to the union's concerns about police officer working 
conditions or the urgent need to hire more officers.
    Thus, it is no surprise that the VA police force experiences 100% 
turnover every four years. Many AFGE locals echo the view that VA has 
significant weaknesses in recruitment and retention of a strong VA 
police force. VA police pay is not competitive with other Federal 
agencies or the private sector. Even when special salary rates are 
approved in high cost areas, the approval process has been slow, and 
officers are frustrated by the agency's unwillingness to provide 
retroactive pay to the date of approval.
    Another contributing factor to recruitment and retention challenges 
is the longstanding inequity in pay and benefits within the Federal law 
enforcement workforce. VA police are not considered law enforcement 
officers, and do not have comparable pay and benefits with other 
Federal police forces with similar jobs and duties. Therefore, AFGE 
strongly supports H.R. 1195, the ``Law Enforcement Officer Equity Act'' 
that would amend the definition of the term ``law enforcement officer'' 
to include VA police officers and other Federal employees whose duties 
include the investigation or apprehension of suspected or convicted 
individuals and who are authorized to carry a firearm.
    AFGE is pleased that Fred Jackson, Director of the Office of 
Security and Law Enforcement (OS&LE), recently stated to our members 
that he recognizes that the current staffing model of two police per 
facility is inadequate. Mr. Jackson also indicated that he is looking 
at new staffing models that consider the size of the facility and the 
geographic area that needs to be covered. AFGE strongly urges the 
Subcommittee to ensure that front line police officers and their 
employee representatives have meaningful input into the process for 
addressing the deficiencies identified by the OIG.
    To that end, we have attached a recent letter sent by Andrew U. 
Peterson, Acting Vice Chair of the AFGE Law Enforcement Committee to 
Acting VA Deputy Secretary James M. Byrne stating that he and his 
colleagues welcome the OIG report and requesting that Deputy Secretary 
James act on the recommendation of AFGE National VA Council President 
Alma Lee to form a joint labor-management work group or exploratory 
committee to review proposed changes, conduct surveys and outline all 
areas of impact. Labor-management collaboration could be extremely 
valuable for addressing all the OIG recommendations including staffing 
models, retention and recruitment strategies, ensuring timely 
inspections, effective officer investigations and overall 
accountability for policy program operations and performance.
    Training is another area where the input of front-line employees 
and their union representatives are critical. We received a report that 
the Law Enforcement Training Center Training does not distinguish 
adequately between new officers and those who join the VA police force 
with substantial prior experience. Collaboration on the design of 
future training programs could avoid duplication and address unmet 
training needs.
    AFGE strongly supports H.R. 1309, the ``Workplace Violence 
Prevention for Health Care and Social Service Workers Act'' that would 
require the Occupational Health and Safety Administration (OSHA) to 
establish a new rule and require employers to develop workplace 
violence prevention plans. Each plan would ``be developed and 
implemented with the meaningful participation of direct care employees 
and, where applicable, employee representatives and collective 
bargaining.'' More effective governance of the VA Police Program and 
formal ongoing VA labor-management collaboration would be essential 
components to this new OSHA rule.
    Thank you for considering the views of AFGE. We look forward to 
working with the Subcommittee to achieve improvements in the VA Police 
Program and ensure that veterans, their families and the dedicated 
employees who care for them are safe.

                                 <F-dash>
               Letter from AFGE Law Enforcement Committee

    March 17, 2019

    To: The Honorable James M. Byrne, Acting Deputy Secretary of 
Department of Veterans Affairs

    Subject: VA OIG Report #17-01007-01, Inadequate Governance of VA 
Police

    Mr. Byrne,
    In December 2018, you received the VA Office of Inspector General's 
Report, ``Inadequate Governance of the VA Police Program at Medical 
Facilities.'' The issues presented in the OIG report are not new to VA 
Police. In fact, rank and file Officers welcome this report, as it 
reflects concerns that we have been attempting to address for many 
years. I am aware that you have received and are taking action on the 
report.
    As the National VA Council (NVAC) Representative on the Executive 
Board of the American Federation of Government Employees (AFGE) Law 
Enforcement Steering Committee, I have presented some points of 
discussion to NVAC President Alma Lee regarding the OIG Report.
    President Lee recommended a joint work group or exploratory 
committee with agency and union representatives for reviewing potential 
improvements to the VA Police Service. The group would review the pros 
and cons of different ideas, conduct surveys, and outline all areas of 
impact.
    We would like the agency to consider such a cooperative effort to 
develop improvements to the VA Police Service. Together, we may come up 
with solutions that would lead to long term proactive developments for 
the Police Service, and ultimately improve the safety and security of 
our facilities for Veterans, visitors, and employees alike. We look 
forward to hearing back on the possibility of collaboration.

    Andrew U. Peterson
    Acting Vice Chair and NVAC Representative
    AFGE Law Enforcement Committee,
    American Federation of Government Employees, AFL-CIO

                                 <F-dash>
                              JEAN TELFORT
    My name is Jean Telfort, and I am a 100% service-connected disabled 
veteran. I have been diagnosed with Post-Traumatic Stress Disorder 
(PTSD) and have suffered debilitating nerve damage to my left arm, a 
shattered upper hip and thigh, and spine injuries from my tour of duty 
in Afghanistan. I live in Nassau County, New York, and have been 
receiving care at the Northport VA Medical Center since 2012.
    In November 2017, I required spine surgery to prevent quadriplegia. 
After the surgery, physical therapy (PT) and occupational therapy (OT) 
were a vital part of the recovery process. I successfully received PT 
and OT at a community facility close to home where I had been treated 
in the past. However, Northport ended my community care about four 
months after my surgery, and my treatment did not resume until I had my 
first PT session at Northport on June 4, 2018. I had gone nearly five 
weeks without the therapy necessary for my rehabilitation, and my level 
of discomfort and pain had started to increase.
    On June 6, 2018, I woke up with major back pain. That morning, I 
returned to Northport for my second PT appointment and saw my primary 
care doctor to consult about the pain I was experiencing post-surgery. 
My doctor sent me to take x-rays and then to Northport's Physical 
Medicine and Rehabilitation (PM&R) Clinic to make an appointment with a 
shoulder specialist.
    I arrived at PM&R and greeted the two medical support assistants 
(MSAs) at the front desk. One of the individuals acknowledged me and I 
proceeded to explain that I had been instructed to schedule an 
appointment with a specialist. The other MSA, who had been on her 
cellphone up until this point, interjected and told me my story was 
unnecessary because the two specialists were not in. She said I could 
leave a note for them to follow-up. I tried to explain the urgency of 
the situation due to the pain I was in and asked whether someone else 
might be able to assist me. The MSA went from annoyed to angry and told 
me ``we are not going to do this today.'' I asked what she meant by 
that, and she continued to speak over me during the brief, and 
frustratingly rude, exchange that followed. After some back and forth, 
she threatened to call the police on me. I welcomed the call because I 
had done nothing except ask for assistance. She called the police.
    Almost immediately, a young police officer entered the waiting 
area. I stood calmly in front of the reception desk and leaned on the 
counter. I had stopped engaging in the exchange with the MSA, so the 
room was quiet when the officer arrived. He asked, ``Sir, is everything 
okay?'' I answered, ``Officer, I was sent down here by my primary care 
doctor to schedule an appointment for specialty care. Since I arrived 
here, this lady has done nothing to help me except telling me what's 
not going to happen; she kept interrupting me every time I tried to 
speak by talking over me. When I tried to remind her that I am the 
patient and needed to be heard, she followed no professional protocol 
and threatened to call you guys on me. I don't have a problem, maybe 
she does.'' The lone officer said, ``Okay Sir, would you like to take a 
walk while I get her version of the story?'' I replied, ``Officer I 
have been up since 5AM to get here on time for a 7:30 PT appointment. I 
am tired. I will take a seat and wait to see if anybody will help me. 
The Officer said ``Okay.'' I sat down and started to read the book I 
had with me.
    The MSA proceeded to tell the officer her version of the story. A 
bystander two seats to my left whispered ``that's not what happened at 
all.'' I stood up remaining in front of the chair and said, ``Officer 
when you're finished, there are people here who witnessed what happened 
and they are willing to speak to you.'' As the officer affirmed he 
would do so, two other officers walked in. One of them came directly up 
to me, got in my face and said, ``You need to calm down.'' I explained 
that I was simply trying to communicate with the original officer about 
what had transpired. The officer who got into my face then ordered me 
to ``sit down'' again. I replied, ``Officer, I am fine.'' He then 
grabbed my left arm in a forceful manner-this is the arm with nerve 
damage, muscle atrophy and finger paralysis-and said, ``LET'S GO FOR A 
WALK.'' I responded, ``Officer, you have no right to put your hand on 
me, you need to let me go.''
    All I can remember after that moment is bracing myself for impact 
as I was lifted and body-slammed to the ground face down. There were 
multiple officers on me, one officer was pressing my neck on the ground 
while I screamed: ``I just had spine surgery, I can't breathe!'' My 
scream didn't seem to matter. They handcuffed my left arm and tried 
very awkwardly to force my right arm to my back-this resulted in three 
tears to my shoulder. I felt a knee in the center of my back and a foot 
pressed between my shoulder blades. I continued to cry out in pain and 
shame.
    I then heard the voice of one of my former therapists. She asked 
the officers what they were doing, explained that she knew me, and that 
I had problems with my hips and hands and had just received spinal 
surgery. One of the officers responded that I had resisted arrest, 
which led to my therapist's next question, ``arrest for what?'' She ran 
over, grabbed my face and told me to look at her. She said, ``It's 
okay, I am going to help.'' I was crying; ashamed, shocked, humiliated 
and in terrible pain. I asked my therapist what had just happened as I 
struggled to process how I had gotten to this point.
    I was surrounded by paramedics and a doctor. The doctor was asking 
me questions and trying to reassure me that everything would be okay. I 
told the doctor I was in severe pain and my shoulder felt like it was 
on fire. The doctor requested that the handcuffs be removed. One of the 
officers responded ``No'' and added that I ``would escalate'' if my 
hands were free. The doctor observed that I was in tears and appeared 
to be under control. The officers provided me some relief by putting 
the two handcuffs together. Being transported to ER in handcuffs only 
furthered my humiliation.
    When I arrived at the ER, the attending physician informed me that 
I would need to calm down before I received treatment because my blood 
pressure was too elevated. The officers were asked to remove the 
handcuffs. They handcuffed me to the bed like a criminal. About five 
officers stood on the other side on the curtain that separated us. I 
could hear them seemingly try to get their story straight. I overheard 
one of them say, ``You saw when he hit me,'' and my heart sank. I 
realized they were trying to blame me for their actions. To protect 
myself, I asked the nurse to contact the OEF/OIF Program Manager to be 
my advocate and witness. I spent hours in the ER and went to Radiology 
for several X-rays to ensure nothing was broken and the screws in my 
back were not displaced.
    After I was discharged, I requested to see the patient advocate to 
place a complaint. I was advised to get a copy of the incident report, 
so I went to the police annex to do so. I was told I needed to complete 
a request form and the incident report would be mailed to me. Over a 
week later, instead of an incident report, I received two tickets in 
the mail: one for disorderly conduct with a $130 fine attached, the 
other for assaulting/resisting an officer. I was shocked-I hadn't 
assaulted anyone, and now I was being summoned to Federal court.
    Two days after receiving these tickets, I returned to the Northport 
VA police annex to follow up on my request for a copy of the police 
report. I was told it wasn't ready, and that it would be mailed out in 
a couple days. I didn't know anything about the legal process for 
dealing with tickets from the VA in Federal court. I had to make 
several calls to local law offices and Federal defenders to understand 
the severity of the situation these tickets could cause. Everyone I 
spoke to about the incident requested either a video or police report.
    Growing frustrated by the lack of support, I returned to Northport 
a week later to follow up on the status of the police report. After an 
unsuccessful attempt to retrieve it from the police annex, I was 
directed to another office for assistance. Finally, after a forty-five-
minute wait, two weeks and three trips to Northport, I was handed the 
police report. However, nobody could provide me with any information 
about the summons I had received. The tickets couldn't be located in 
any system, and the only advice I was given was to wait and see what 
unfolds. Another month passed before I received a formal notification 
in the mail to appear at the U.S. District Court for the Eastern 
District of New York in August.
    When I showed up for my first appearance in court, there was no 
judge present that day. A lawyer representing the Northport VA police 
was there, as well as an officer from the police annex who I recognized 
as the individual I had spoken to previously about obtaining the 
report. The lawyer spoke to me about negotiating a plea deal and read 
from some of the witness statements he had. The officer informed me 
that he had conducted an investigation of the incident and produced six 
witness statements. I didn't understand why an officer from the 
Northport VA police would be the one handling an investigation into an 
incident involving his other officers. He had never spoken to me to get 
my account of the incident but had concluded in the report that I was 
at fault and his officers acted accordingly. The report hadn't 
mentioned my interaction with the first officer on the scene, and there 
had only been two eye-witnesses present when the incident had occurred.
    I didn't accept the plea deal that day. I didn't have any legal 
representation at that point, and I was not confident that taking the 
word of the lawyer for the Northport VA police would be in my best 
interest. Northport's representation failed to appear for my next two 
scheduled court dates. The last time I appeared in court was in 
January, and a different lawyer was present this time on behalf of 
Northport. Again, the lawyer tried to intimidate me into taking a plea 
without seeing a judge.
    Last week marked one year since my unfortunate incident with the 
Northport VA police, and I am still in the dark about what is going on. 
Despite several court appearances, I have yet to see a judge and no one 
seems able to inform me about the status of these tickets.
    Following the incident, it was weeks before I could restart the PT 
I needed for my back. I am still receiving PT for my right shoulder. 
New problems surfaced with my left arm, leading my spinal surgeon to 
believe the incident created new nerve damage. These physical wounds 
are accompanied by the emotional and psychological struggles that I 
face every day. I have been through a lot in my 52 years of living, but 
this incident was the most humiliating and painfully devastating 
experience of my life.
    In the seven years that I have been receiving care at the Northport 
VA, I have never had an issue with anyone until that day when I was 
confronted by the VA police. I earned my healthcare through my service, 
and veterans deserve to access care at VA facilities without fear of 
being harmed when they are seeking help. I believe that the Northport 
VA and its police officers failed me on Wednesday, June 6, 2018, and 
they continue to harm me with each passing moment I am denied closure. 
The negative impact this whole ordeal has had on my health and overall 
well-being is not a representation of the VA living up to its mission 
statement to care for veterans.

                                 [all]
</pre></body></html>
